<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE AMERICA COUNTS TODAY [ACT] INITIATIVES TO ENHANCE TRADITIONAL ENUMERATION METHODS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE AMERICA COUNTS TODAY [ACT] 
         INITIATIVES TO ENHANCE TRADITIONAL ENUMERATION METHODS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 1999

                               __________

                            Serial No. 106-1

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______



                     U.S. GOVERNMENT PRINTING OFFICE
55-702                       WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
JOHN T. DOOLITTLE, California        CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            DANNY K. DAVIS, Illinois
PAUL RYAN, Wisconsin                 HAROLD E. FORD, Jr., Tennessee
MARK E. SOUDER, Indiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas B. Hofeller, Staff Director
                Kelly Duquin, Professional Staff Member
           David McMillen, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 2, 1999....................................     1
Statement of:
    Myrick, Hon. Sue, a Representative in Congress from the State 
      of North Carolina; and Hon. Carrie Meek, a Representative 
      in Congress from the State of Florida......................     2
    Prewitt, Kenneth, Director, U.S. Bureau of the Census........    35
Letters, statements, etc., submitted for the record by:
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    32
    Meek, Hon. Carrie, a Representative in Congress from the 
      State of Florida, prepared statement of....................    10
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................    24
    Myrick, Hon. Sue, a Representative in Congress from the State 
      of North Carolina, prepared statement of...................     4
    Prewitt, Kenneth, Director, U.S. Bureau of the Census, 
      prepared statement of......................................    40


  OVERSIGHT OF THE 2000 CENSUS: EXAMIN- ING THE AMERICA COUNTS TODAY 
      [ACT] INITIATIVES TO ENHANCE TRADITIONAL ENUMERATION METHODS

                              ----------                              


                         TUESDAY, MARCH 2, 1999

             U.S. House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2203, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Maloney, and Davis.
    Ex officio present: Representative Waxman.
    Staff present: Thomas B. Hofeller, staff director; Jennifer 
Safavian, chief counsel; Kelly Duquin, professional staff 
member; Phil Schiliro, minority staff director; Phil Barnett, 
minority chief counsel; Michelle Ash, minority counsel; David 
McMillen, minority professional staff member; and Ellen Rayner, 
minority chief clerk.
    Mr. Miller. Good afternoon. A quorum is present and we 
shall begin the hearing of the Subcommittee on the Census.
    We are going to have a slight change in the order this 
afternoon, since a vote is coming in about another 20 minutes, 
we thought we would have the two Members of Congress who will 
be testifying today make their statements and handle any 
questions and then we can break for the vote and then probably 
we will reconvene, I would guess right now, around 3, as soon 
as we finish the second vote. Congresswoman Meek is on her way 
and so in order to expedite time, let us call on Congresswoman 
Sue Myrick.
    Congresswoman Myrick is a former mayor of Charlotte, NC and 
was involved with the census and is going to be able to testify 
today.
    Congresswoman Kay Granger was also going to testify but she 
is apparently sick with the flu and is not even back in town 
today, so maybe on another occasion we will have her be able to 
testify.
    So with that, I would like to call on Congresswoman Sue 
Myrick.

  STATEMENTS OF HON. SUE MYRICK, A REPRESENTATIVE IN CONGRESS 
   FROM THE STATE OF NORTH CAROLINA; AND HON. CARRIE MEEK, A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Mrs. Myrick. Thank you Chairman Miller, Ranking Member 
Maloney, and the members of the subcommittee. I really 
appreciate the invitation to testify today.
    As you mentioned, I am a former mayor of Charlotte, NC and 
also represent the 9th District of North Carolina, so I do 
understand the census from both the local, regional, and 
national perspective.
    I have a great deal of respect for the Census Bureau and 
the work that it does and I have a link to them on my web page, 
for instance, but it is out of this respect for the Bureau and 
the process of the census that I come before you today with 
some grave concerns regarding the 2000 census.
    I have serious concerns regarding the use of the sampling 
plan put forward by the Census Bureau. It was difficult for me 
to understand all this and it has been exceptionally difficult 
for my constituents to understand.
    How can counting 90 percent of the population and 
estimating the rest yield accurate results, especially when the 
census accurately counted 98.4 percent of the population in 
1990?
    I understand there were statistical experts who said it 
would be more accurate and those who said it would not. 
However, as an elected official knows, we must be able to 
explain the plan to the people in a way that they can 
understand and for this reason alone the Bureau's plan failed 
to convince my constituents that it was in their best interests 
to change the fundamental way the census has been conducted for 
the last 200 years.
    In my years of public service, I have learned many things, 
but most importantly, I have learned that the ``we know better 
than you'' attitude that is so common in Washington breeds 
distrust and apathy. And it is amid this respective trust that 
I raise my first concern today, the failure of the Census 
Bureau to include a plan for post-census local review in the 
2000 census.
    The ability of local governments to check the work of the 
Census Bureau is fundamental to building trust between local 
and Federal Government. The Census Bureau has made a concerted 
effort to involve local governments during the planning stages 
to help develop maps and address lists and it seems 
fundamentally flawed to cut them out from a final review at the 
end.
    I am also keenly aware that most local government officials 
are in favor of post-census local review. And why should they 
not be? They and they alone are going to have to answer to 
their constituents if problems arise from the census and 
certainly personnel at the Census Bureau are not going to 
answer my constituents' concerns.
    I am keenly aware that the Census Bureau has proposed what 
they term an alternative to post-census local review. This 
alternative is to do a two-number census and provide sample 
numbers to the States for their use. The original sampling plan 
was difficult enough to understand and how do I explain this 
need for two sets of numbers?
    As I understand it, population numbers for the second 
manipulated number will include a mixing of population data 
from other States. If I were a Governor, how could I draw up a 
redistricting plan based on population data from other States?
    I believe that the Bureau's answer is that the States have 
a choice, but why waste time and money giving the States 
useless information?
    As many members of the subcommittee know, North Carolina 
has been tied up in court for most of the decade with 
redistricting disputes and we are there again now. If the 
Bureau continues with its current plan for a two-number census, 
these suits will only become more prevalent. California, 
Indiana, Wisconsin, Virginia, Florida, New York, Illinois, and 
Tennessee will find themselves in similar situations.
    Many of the members of the subcommittee have served in 
local government. Is there anyone here that honestly believes 
that you could put forth a redistricting plan based on 
population data from other States and not have it challenged in 
court?
    I would like to thank the subcommittee for the fine work 
you have done. The census is the foundation of our democracy 
and everything that we do is based on actual enumeration in 
America. If the census is not trusted by the people, then it 
becomes a failure.
    I hope the Bureau will incorporate Chairman Miller's common 
sense plan to count Americans. We must provide not only the 
Bureau but local governments and community-based organizations 
with the resources and the tools they need to have an accurate 
2000 census.
    Thank you, Mr. Chairman, for the opportunity to share my 
concerns with the subcommittee.
    [The prepared statement of Hon. Sue Myrick follows:]
    [GRAPHIC] [TIFF OMITTED] T5702.001
    
    [GRAPHIC] [TIFF OMITTED] T5702.002
    
    [GRAPHIC] [TIFF OMITTED] T5702.003
    
    [GRAPHIC] [TIFF OMITTED] T5702.004
    
    Mr. Miller. Thank you, Ms. Myrick.
    Congresswoman Meek, we have had a little change in 
schedule. Because we are going to have a vote shortly, we 
decided for your convenience, actually, to allow you all to go 
first before we have our opening statements, so that is the 
reason you are immediately put in the chair to make your 
presentation, so we will be able to ask you to make your 
presentation and then we will have a chance for some questions 
before we proceed to vote.
    Congresswoman Meek helped us have a hearing on the census 
down in Miami last December, and I thank you very much. And the 
day before we had the opportunity to spend touring your 
district and getting a better feeling and understanding of your 
district.
    I think it was very valuable, both the trip to Phoenix--
where we talked mainly about the Indian undercount problem and 
then to Miami, the unique problems in Miami. It was very 
enlightening for both Congresswoman Maloney and myself.
    So we are glad that we are cosponsoring a bill that I think 
you are going to talk about today and look forward to your 
comments.
    Congresswoman Meek.
    Mrs. Meek. Thank you very much, Mr. Chairman, and members 
of the subcommittee. I am pleased to be here and I want to 
thank you for taking this opportunity to mark up H.R. 683 on 
the Improvement Act of 1999. As you know, this legislation was 
introduced last year. I am so happy that we are able to bring 
it up this year.
    Now, I must say to the subcommittee it is good to have a 
good bill, but it is even better if you have the chairman as a 
cosponsor of the bill, so I am more than pleased to be here.
    Various techniques, Mr. Chairman and members of the 
committee, can be used to improve the accuracy of the physical 
count in the 2000 census, particularly in the year 2000, 
particularly in poor neighborhoods.
    I do not think I can embellish or enhance too much more 
than each of you has said and known already, but thousands of 
additional enumerators are going to be needed and will be 
hired. And my reason for sponsoring this bill and the 
chairperson as well is that about 683 people will be allowed to 
be hired if this bill is passed and people who are on public 
assistance and veterans will be able to get jobs as temporary 
census enumerators without losing benefits.
    Now, all of you understand that it makes a count more 
reasonable if there is someone who lives in that neighborhood 
or someone who knows the persons who are living there who go in 
to count.
    It is a known fact that many people do not want to be 
counted. They do not want to be found. Many of them are in 
apartments, in the back of other apartments. Many of them are 
living with people that other people do not even know where 
they are living.
    So it does help to a great extent to have people from those 
neighborhoods, people who know these people counting, so when 
they knock on the door, they do not think it is a bill 
collector or they do not think it is someone they know nothing 
about.
    So this bill provides temporary pay for these census 
enumerators in the decennial census and they will not have to 
lose their benefits. The last time this question came up, some 
agencies had policies that would allow them to go ahead and be 
temporary enumerators without losing their benefits; others did 
not.
    There was really no widespread acceptance of this. Even the 
Secretary of HHS could not say this would be a standard policy 
throughout the agencies. So it would be very good if this 
committee sees fit to pass this.
    The real thing we are aiming for here is a more accurate 
count. We know that the accurate count will be much--the count 
will be improved if we have people who are in these poor and 
minority and immigrant communities.
    Mr. Chairman, in many of these communities, people come in 
daily. They come in by boat, they come in whatever way they 
come in by. They are there.
    According to our constitutional mandate, we have to count 
every head. So if you have people who are in that neighborhood 
who are willing and able to find people and count them, 
everyone will be counted.
    I will end by saying there is suspicion of government. 
There is suspicion of new people coming to your door asking who 
is there and asking questions. So what this bill will do is 
allow these enumerators to be hired on a temporary basis and 
allow neighbors to count neighbors.
    We do not all agree on everything. We do not all agree on 
sampling and other methods and methodologies, but we do agree 
on one thing: that if we are able to enhance the count and make 
the count much more accurate, we need to be sure that we count 
these areas where we know the undercount has been very glaring 
in poor and minority communities and we know this points us in 
the right direction.
    We are going to press for passage of this bill and we are 
certainly going to press the Census Bureau, when this bill 
passes, to aggressively recruit minority enumerators in these 
poor and minority communities.
    This is a fair and crucial process and I hope that the 
subcommittee will see fit to pass it.
    Thank you.
    [The prepared statement of Hon. Carrie Meek follows:]
    [GRAPHIC] [TIFF OMITTED] T5702.005
    
    [GRAPHIC] [TIFF OMITTED] T5702.006
    
    Mr. Miller. Congresswoman Meek, we are not marking up the 
bill today. Hopefully, I think we are doing it on Thursday 
morning. But the criticism I have heard from both people on the 
Ways and Means Committee, and Secretary Shalala, is that we are 
usurping State power since we delegated all this power to the 
States. And we have talked about this, but the question is, 
well, how do we justify doing this?
    I mean, I am supportive of it, but how do you answer the 
question of some of the critics of our bill that say, well, why 
are we taking away a State power, since in 1996 we gave them 
the State power?
    Mrs. Meek. I think that the States' rights issue is not a 
good issue here in that in terms of States--they will be the 
first ones to sue you if they do not think that you have an 
accurate count. History is replete with States who have sued 
the Census Bureau and the Government because they did not feel 
there was an accurate count.
    So I think one of the strongest parts of our rationale is 
keeping closely to an accurate count. They all agree that the 
count is very, very important.
    I think it will be much better this time if we are able to 
get these people involved and I think it does say something 
also to poor people and minorities, that, look, we are so 
interested in your being counted, we are going to find you 
wherever you are, even though many of you may feel that we are 
encroaching upon you. We need to know that every citizen is 
there.
    Now, I will tell you another thing, Mr. Chairman. The 
States are not going to hold back when you start issuing the 
money. When it comes down to issuing the money and giving them 
their share of the money, they are not going to say, oh, we 
have States' rights. They will be happy if you have gotten an 
accurate count in their community.
    I think that is something that each of them will be very 
much secure in, if they know that they are getting the good 
count.
    Mr. Miller. And another argument I will make is that it 
is--this is a constitutional requirement to do the census.
    Mrs. Meek. Right.
    Mr. Miller. And it is very specific that we must conduct 
the best census possible in our Constitution, that I think in 
this case we have--you know, once every 10 years we have a 
right to make it possible. So I agree with you.
    Let me ask Congresswoman Myrick a question.
    Mrs. Myrick. I was just going to ask if I might comment on 
that, because I also support the bill. And, you know, this is 
on my mind. I am a great States' rights person, so I am always 
big on States' rights, but this is like providing guidelines 
for the States to follow so you know that you are going to get 
an accurate census. And, as you said, it is a constitutional 
matter and that is really what is important, so I do not see 
this as a conflict.
    Mr. Miller. You mentioned in your statement about the 
lawsuits.
    Mrs. Myrick. Yes.
    Mr. Miller. And I have been reading about North Carolina. I 
do not know if it is settled yet, but----
    Mrs. Myrick. No.
    Mr. Miller. I mean----
    Mrs. Myrick. It is not. Not until this summer.
    Mr. Miller. I mean, lawsuits are going to happen, but with 
a two-number census, there are going to be more lawsuits than 
we can keep track of, the whole area of census law is going to 
be developing. What is your comment about this? You have the 
lawsuits that North Carolina----
    Mrs. Myrick. Well, it has been a real frustration, again 
because you go back to the people in the districts. I mean, 
they do not know what district they are in.
    Since 1992, when Mel Watt's district was established, we 
have had challenges every time to his district. And so we are 
constantly having new districts. And it is just--people just 
throw up their hands. They do not know where to vote, they do 
not know who is their representative. And, you know, we just 
help everybody out because it is so frustrating to everyone.
    And, of course, Mel's district and my district border each 
other, so we are especially affected by all this. And, you 
know, we just keep hoping that it is going to stop. We believe 
that he has a good district now and it does not need to be done 
again, but people challenge it, so that is really where we are 
coming from.
    But if you have more reason for them to challenge, I mean, 
they challenge now with hardly any reason at all, that we are 
going to just be tied up in court and who knows how long this 
will go on, not only in my State but in other States as well.
    Mr. Miller. Can you imagine how two sets of numbers will 
tie it up even more?
    Mrs. Myrick. Well, I mean, that is a perfect reason for 
them to challenge it. So which number is right? It is just mass 
confusion is all we can see. And having been through this now 
since 1990, his district was established in 1992, so it started 
in 1990----
    Mr. Miller. So he had a different district in 1992, 1994, 
1996, and 1998?
    Mrs. Myrick. We did not have a new one in 1996, but we did 
again for the 1998 election. We have another new one.
    Mr. Miller. How about 2000? Is it going to be challenged?
    Mrs. Myrick. Well, right now, if the Supreme Court rules 
this summer that the challenge is OK, we will have a new 
district in 2000 and then a new district in 2002.
    Mr. Miller. OK.
    Congresswoman Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. First, I would like 
to commend both of the speakers.
    And Carrie Meek, I certainly support your bill.
    Building on the comments of the chairman on the hearing 
that was held in your district earlier, it was interesting to 
note that all of the panelists, save one, on the record came 
out in firm support of modern scientific methods in counting 
and there was a cross-section of civil rights groups, of 
Latinos, blacks, Asians, elderly, youth programs, well over 50, 
60, almost 100 different groups from the Miami area that came 
out likewise in support of a modern scientific count.
    But I would like to ask Sue Myrick some questions based on 
her testimony.
    It has been suggested that the post-census review operation 
should be reinstated, and you support that. While I certainly 
support the concept of local review, I believe that the Census 
Bureau's current program of pre-census local review is more 
effective, efficient, and practical than a post-census review.
    For starters, the program's value in 1990 in terms of 
adding people was small in relation to the work and cost 
required. Only 4.2 percent of the 6.5 million census blocks 
nationwide were challenged. The re-canvass of these blocks 
added only 124,000 people. Further, for every housing unit that 
was added through the program, upwards of two units were 
deleted.
    What is your opinion of the new pre-census local review 
program?
    Mrs. Myrick. Well, I support that also. I think that the 
Census Bureau--in order to have the most effective census, if 
they consult with the local officials firsthand, you know, they 
can give them information as to where they know that they have 
the problems because most local officials know where their 
areas are that you will have undercounts or, you know, 
projected undercounts, whether it may be people you cannot 
identify--I mean, you know, in our city, I know where all the 
bridges are that people sleep under, so, you know, you can go 
to the bridges and count them. Very seriously. And there are 
regular people who are there all the time, they live there. 
That type of thing.
    And then the reason I support the post-census is because 
again, it is just going back for one final check and making 
sure you have covered all those areas before you move forward. 
So I do not see it as duplication, I just think that it is 
another mechanism. I think most local officials will be 
perfectly willing to work and not hold it up to be 
controversial or anything, just simply as a support mechanism.
    Mrs. Maloney. Is Charlotte participating now in the pre-
census local review program?
    Mrs. Myrick. Well, I will be honest with you, and I cannot 
answer that question.
    Mrs. Maloney. Could you find out for us and get back to us?
    Mrs. Myrick. I will be glad to find out for you and get 
back to you.
    Mrs. Maloney. What their participation is and----
    Mrs. Myrick. I cannot imagine they are not, because we have 
always had an active process before.
    Mrs. Maloney. In 1990, were you the mayor of Charlotte, in 
that time period?
    Mrs. Myrick. Mm-hmm.
    Mrs. Maloney. And did you participate in the post-census 
local review program?
    Mrs. Myrick. I am trying to remember just how we were 
involved and I should have checked this before I came today, 
Carolyn, and given you an exact rundown and I will do that.
    Mrs. Maloney. OK. Because I would like to know.
    Mrs. Myrick. Yes. I will.
    Mrs. Maloney. I would like to know how many people were 
added in Charlotte's 1990 census count as a result of the post-
census review.
    Mrs. Myrick. We will get that to you.
    Mrs. Maloney. And how much it cost Charlotte and in your 
opinion was the effort and cost worth it in terms of the 
Federal funds that flowed into Charlotte's coffers.
    Mrs. Myrick. Right.
    Mrs. Maloney. One of the things about this is that when we 
did it back in 1990, 50 percent of the persons added were from 
two cities, Detroit and Cleveland.
    Mrs. Myrick. Mm-hmm.
    Mrs. Maloney. And when the Census Bureau looked at this, 
this was based on their prior testimony, I understand Dr. 
Prewitt will be testifying later, he can add to this, but it 
was my understanding because the post-census review was not 
successful in that it only added 124,000 people, they decided 
to work with the mayors and the local governments before to get 
the address lists----
    Mrs. Myrick. Right.
    Mrs. Maloney [continuing]. To check those bridges, to check 
those buildings, everything that you said. They thought it 
would be smarter and more cost effective to do this now or do 
it before, which is what they have done.
    Mrs. Myrick. Right.
    Mrs. Maloney. And so what we are talking about in the 
process that you are proposing that we now add to their plan, 
what does it add to it? They have already done it. They have 
already done that particular job.
    Mrs. Myrick. I think all it adds to it is, again, just a 
double checking and a making sure that all those areas have 
been covered--that they have done the areas that were specified 
in the pre-check and that everything is OK before they move 
forward, nothing has been forgotten.
    Mrs. Maloney. Well, I think that is what the pre-census 
local review is for. But----
    Mr. Miller. The red light does not go on. The green goes 
off.
    Mrs. Maloney. OK. My time is up.
    Mr. Miller. OK. If I can, Mr. Davis, I will switch over to 
Mr. Waxman. May I?
    Mrs. Maloney. May I ask, Mr. Chairman, can I get to her in 
writing questions about Charlotte?
    Mr. Miller. Of course.
    Mrs. Myrick. We will get you those answers. I have a staff 
person who is taking notes on those.
    Mr. Miller. We have requested information from the Census 
Bureau on this and we have not been able to get it ourselves on 
the 1990 post-census.
    Mrs. Myrick. Right. One of the problems, Mrs. Maloney, is I 
did go back and check with my records. All my records are 
archived and we cannot get to them.
    Mrs. Maloney. Oh, really?
    Mrs. Myrick. And so the person who is in the office now, 
you know, did not know and there was no way for me actually to 
check without them going back into the archives out at the 
university, so that is why I was not able to get the 
information for you ahead of time, because we did try.
    Mr. Miller. Some of this we can get from the Census Bureau, 
too.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. I want to thank both 
of you for your testimony today. We all share the interest in 
wanting an accurate census.
    In 1990, we took a census. We did not have any adjustment 
which would have reflected what the Bureau of the Census wants 
to do this time around to be sure the census is accurate.
    Ms. Myrick, you said your constituents cannot understand 
why we would do sampling or do any of these adjustments, we 
would just count the people.
    Mrs. Myrick. Right.
    Mr. Waxman. And that should be good enough. Now, the GAO--
--
    Mrs. Myrick. No, I did not say we should not do 
adjustments. I said we should count the people.
    Mr. Waxman. OK. What adjustments would you make?
    Mrs. Myrick. Well, again, if you have a review that you 
know you are going to be reaching the people in the areas where 
they are living or staying even though they are not registered 
at addresses, so you would have a pretty good idea that you 
have counted everybody. Then you should be OK before--and, as I 
said, checking with the city people before and then again 
afterwards, I do not see really is duplication, and then when 
you move forward you should have a pretty good feel that you 
have everybody.
    Mr. Waxman. Well, the GAO said that despite all the best 
efforts in 1990, we did not get everybody in some places and we 
double counted people in other places.
    Mrs. Myrick. Well, I think that is one reason Carrie's bill 
is such a good idea because----
    Mr. Waxman. Well, let me finish. Because the GAO--we want 
any proposal that will help us get the most accurate count. I 
am not arguing against her bill. But the GAO said that in 1990 
there was an attempt to try to take the figures and project 
where there was an overcount and where there was an undercount 
and rearrange it.
    They proposed to do that, but the Secretary of Commerce 
refused to do it and, as a result, we have many States that 
have lost money that they otherwise would have had over this 
last 10-year period; we have some States that made more money, 
they received more money, because they had people counted 
twice.
    They indicated, GAO indicated, that 27 States and the 
District of Columbia lost $4.5 billion over the decade in 
Federal funds due to the failure to correct the 1990 census.
    Now, the biggest loser was California. The next biggest was 
Texas. There were six States, Arizona, California, Florida, 
Georgia, Louisiana, and Texas, each lost over $100 million. 
Florida should be of interest to our chairman. But even North 
Carolina lost money. In fact, GAO said that North Carolina lost 
$68,300,000.
    Now, are your constituents not going to say to you, why are 
we losing money because the census is not making sure that we 
can project all the people that are here to sample and get an 
accurate picture of all the people that are here?
    There are people in your State that are not being counted 
despite all the best efforts, even with Ms. Meek's bill they 
are not going to be counted. Do you not think we ought to make 
sure that they are all counted and that we are not duplicating 
and overcounting in other States?
    Mrs. Myrick. I have no problem with the fact that they 
should all be counted and I, of course, cannot answer for why 
the Secretary of Commerce would not allow an adjustment after 
the last census. But, again, I go back to the fact that if we 
do the best job we can in counting them now and not just 
estimating, then if there are adjustments needed, if you look 
at the local communities, you are going to know pretty much. 
They pretty much have a handle on where their people are.
    Mr. Waxman. I think they do and they do not. Maybe you know 
where the bridges are, but you do not know exactly what numbers 
of people are under these bridges, but there are methods for 
getting some sampling that can tell you the totality of the 
amount, the same thing as you do and as Ms. Meek does and all 
the other politicians do when we try to figure out what public 
opinion is.
    We do not count every single person, we get enough of a 
sampling, we use a scientific method to determine the totality 
of the population in an area.
    Ms. Meek, do you not think we ought to have--count all the 
people we can and then use all the scientific methods to make 
sure that we have a sampling and a projection of the total 
population in each area?
    Mrs. Meek. My answer is yes.
    Mr. Waxman, for the last 4 years, and even before, I have 
been a strong proponent of sampling in that I do know that I 
have been in one of the States in one of the fights since 1970 
regarding the counts in the census. And it has been very, very 
standard right after each census for minority communities to 
find out there has been an undercount. And, of course, 
certainly, if we could do sampling I would be very, very happy, 
very satisfied that we would get these people.
    Even with my bill, no matter what methodology you do here, 
unless you follow science in what you do, in the end you will 
probably come up with a less than accurate count.
    Mr. Waxman. The Census Bureau is made up of career people 
who understand statistics and the best way to count the 
population. We ought to take their judgment as to how to do 
this thing.
    The Census Bureau was overturned by a political appointee 
at the Secretary of Commerce, who I think decided that it would 
not be in the Republican party's interest to make sure they had 
an accurate count. And I must say that I think we are having 
the same thing this time around where Republicans are saying we 
are afraid that if you count everybody the way the Census 
Bureau thinks is scientifically the best way to get the most 
accurate statistics, that it may hurt Republican party 
interests.
    Now, maybe it does, maybe it does not, but it hurts a lot 
of people in a lot of States, including States where we have 
Democrats and Republicans. We have Democrats and Republicans in 
Califor-
nia, in Florida, in North Carolina, and your constituents, our 
constituents, want to know why they are not getting their fair 
share of Federal dollars in order to do the things that they--
--
    Mr. Miller. The red light----
    Mr. Waxman [continuing]. Need to build roads and everything 
else.
    Mr. Miller. The red light does not work. The green light is 
off, which means the same thing.
    Mr. Waxman. Thank you, Mr. Chairman, and thank both of the 
witnesses.
    Mrs. Meek. Mr. Chairman, if I may have just a second?
    Poor people, the people on food stamps, the people on 
welfare, they do not care anything about parties. They really 
do not.
    They are concerned about what benefits they can get from 
the government and how the government can help them. When they 
are waiting for a house or something that the government should 
be giving people who cannot afford to do it, they can care very 
little about the ideologies that we hear in the Congress and in 
the public.
    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Let me 
commend you and Representative Meek for what I consider to be a 
very common sense, solid piece of legislation in terms of 
trying to make sure that individuals who are indigenous to low 
income communities have an opportunity to participate as 
enumerators without penalty.
    Representative Meek, my question is even if we make use of 
these individuals who are indeed indigenous to local areas and 
who have a greater sense of awareness of what is there, after 
all is said and done, do you think that the people still will 
be counted or will we have missed a considerable number of 
people even making use of indigenous people to those areas?
    Mrs. Meek. I think the utilization of indigenous people 
will enhance the ability to get an accurate count. It means 
that common sense tells you that if you have someone who is 
known in that area to go in, since you are going to have a head 
count, you are looking for enumerators. The Constitution says 
you must count every head.
    Well, what is any more logical way of counting every head 
than to have someone who knows where those heads are, who can 
go and tap them?
    And I think in that particular realm that one of your 
better methods is to not exclude them in any scientific 
sampling that you may be able to do, but this does mean that 
your enumeration will be much better than it would be if you 
did not have them.
    Mr. Davis. Is it your experience that in many such areas 
that there are still persons who could be termed unreachable, 
untouchable, and that no matter how hard you try in terms of 
the actuality of seeking them out that there still is a strong 
possibility that you are going to miss them?
    Mrs. Meek. I do not think there is a strong possibility. I 
think there is a possibility, but it is not as strong as it 
would be if you were not to use enumerators from those areas 
and that they know where the people are.
    I visit a lot of the homeless shelters in my district and 
those without; and if it were not someone that we would enlist 
from Catholic Charities, from some of the rescue missions who 
know where those people are, the regular enumerators would 
never find them.
    Or if you were to go to a housing project, you would find 
out that there are many people there you never know are there, 
but you will find them if you use people who live in that 
particular housing project, in that particular unit. And that 
happens a lot with children, in that many times they do not get 
an accurate count with children.
    You will get a better, more accurate count with children if 
you are working through the local CAAs, if you are working 
through the local Head Start programs.
    And to answer your question, I guess anything that exists 
in any amount can be measured. If that is the case, then we 
should use the best methodologies we can find to measure them.
    Mr. Davis. Thank you.
    Representative Myrick, I agree with you that there is a 
certain amount of confusion that will in fact exist, especially 
if we have two sets of numbers in any kind of way. Of course, 
some people are going to be confused even if there is only one.
    Mrs. Myrick. True.
    Mr. Davis. But with two sets of numbers, and especially the 
way that we are talking about using those now, I guess we are 
talking about using one set for one purpose, that is, the 
purpose of entitlement, another set for apportionment.
    Do you think if one had to weigh or try and determine if 
one part of this equation was more important than the other, I 
mean, is entitlement more important than representation or 
could you see both being equally important?
    Mrs. Myrick. I think both are equally important. And my 
main concern was simply with the fact of the confusion in, 
first of all, having the two numbers and then second, if there 
are estimates other States use, then that just gives people an 
opportunity to sue.
    And a lot of people today do not need an opportunity, they 
do it anyway. For instance, in North Carolina, as I said, with 
our districts, you know, we thought we had done a very fair job 
of redistricting this last time, but they came back and said, 
no, it is not.
    The concern that I have is what happens with the people at 
home when they are trying to figure all this out.
    Mr. Davis. Well, I certainly appreciate your response and, 
you know, I just think it is unfortunate and I feel very 
strongly that after all is said and done, as we are currently 
moving, that there are indeed people who are going to be denied 
either entitlement or representation and I think that is most 
unfortunate because I do not believe that it is necessary that 
we do that. I do think it is possible that we could indeed 
provide the opportunity for people to both count and be 
counted.
    Thank you very much, Mr. Chairman.
    Mr. Miller. I was just handed a note by the staff 
concerning Mrs. Maloney's question that Charlotte, Ms. Myrick, 
that Charlotte did participate in the post-census local review 
in 1990, but they did not know the outcome because the bill did 
not tell all the communities exactly what the impact was and 
that Charlotte/Mecklenberg is supporting post-census local 
review now. Those are the counties, the two counties together, 
I guess.
    Mrs. Myrick. Well, Charlotte is a city in Mecklenberg 
County.
    Mr. Miller. Oh, I see. That is the county. OK.
    Mrs. Myrick. So they work together.
    Mr. Miller. Thank you.
    Well, we have a vote going on. Hopefully we can be back 
here right after that second vote, which would be approximately 
3 p.m. We will stand in recess until then.
    [Recess.]
    Mr. Miller. The subcommittee will come back into session 
and we will begin with opening statements by the Members.
    Good afternoon. Today we have heard from two distinguished 
Members of Congress, Sue Myrick and Carrie Meek, and we will 
now hear from Dr. Kenneth Prewitt, the Director of the Census 
Bureau.
    Last week, the Clinton administration, to my extreme 
disappointment, officially announced its plans for a two-number 
census. One, a legal number, mandated by the Supreme Court and 
a second number manipulated by their controversial and unproven 
sampling plan and then provided to the States.
    This plan, when put forth by the Clinton administration, 
reverses 6 years of policy calling for a one-number census. For 
years, the Clinton administration has said that to provide two 
sets of numbers measuring the same population would cause 
confusion and controversy for the American people.
    As recently as this past November, the Census Bureau said 
in its operational plan, ``The Census Bureau plans to produce a 
one-number census estimate of the United States population in 
Census 2000 that will improve accuracy and eliminate confusion 
and controversy caused by having more than one set of census 
results measuring the same population.''
    Apparently, now that the Clinton administration's plan to 
use population polling, rather than counting, in the census has 
lost in two Federal courts and the Supreme Court, the 
administration is perfectly willing to ignite controversy and 
cause confusion. This two-number census is a recipe for 
disaster and will lead down a path that will force every State 
and local government in America into court.
    While most Members of Congress and the American people 
thought that the Supreme Court would make the final 
determination on how the 2000 census would be conducted, few 
thought that the Clinton administration would still attempt to 
sidestep the high court in order to pursue its illegal sampling 
plan.
    Director Prewitt, I read with interest your comments 
yesterday in Roll Call. You said that people were getting the 
impression that we are headed toward two censuses: a Republican 
and Democrat census. I could not agree more: a Republican 
census approved by the Supreme Court and a Democrat census that 
is headed toward confusion, controversy, and the courts.
    In the Roll Call article, you were very concerned about 
this perception, but you should not be surprised. Last week, 
the Clinton administration reversed 6 years of Bureau policy by 
advocating a two-number census, once again putting politics 
over good public policy.
    The full count, in accordance with the Supreme Court, must 
be the most accurate count possible. That is why the very week 
of the Supreme Court's decision I introduced the America Counts 
Today [ACT], initiatives at the U.S. Conference of Mayors 
winter meeting. The America Counts Today initiatives is 
designed to provide the additional tools needed to improve the 
2000 census.
    The America Counts Today initiatives are only the 
beginning. I would hope and expect that the administration 
would have concrete ideas as well on how to legally improve the 
2000 census. I made a pledge that day and I repeat it today, 
that if more is needed, I will support it.
    For some time I have been focused on how to reduce the 
minority undercount. I began a series of field hearings 
throughout the country in the hardest to count areas to learn 
ways to count the people that have been missed in the past. 
These hearings were designed to solicit the input of community 
stakeholders on ways to improve a traditional census in their 
respective communities. To date, there have been field hearings 
in Miami and Phoenix.
    The America Counts Today initiatives are an outgrowth of 
this effort. I believe we need three major community-based 
improvements for the 2000 census. We need to increase community 
awareness, increase involvement of community leaders and 
reinforce community enumeration.
    First, I want to increase the involvement of community 
leaders. My top priority has been to reinstitute post-census 
local review. That bill, H.R. 472, is an important first step 
to improving the 2000 census.
    Nobody knows better than mayors and local officials where 
people in their communities live. Post-census local review 
gives them the opportunity to review census numbers in their 
communities before the Bureau makes them final.
    This program was used in 1990 and added more than 80,000 
households, but was discontinued in 2000 to the disappointment 
of most local government officials. Post-census local review is 
a common sense idea.
    Why should not the Census Bureau be subject to a local 
audit of their work? Everyone makes mistakes and we all know 
that the census is a difficult and complex undertaking. If you 
want local governments to trust your numbers, then you must 
give them a reason to do so.
    I have also proposed establishing a matching grant program 
for local partnership groups and communities to provide the 
resources needed to conduct outreach efforts and to encourage 
participation in the census in their respective neighborhoods.
    Community awareness is critical to a successful census. 
Consequently, I have proposed increasing the advertising budget 
from $100 to $400 million with a significant portion of the new 
money targeted toward the hardest to count areas of the Nation.
    Compared to some other Federal advertising programs, the 
$100 million total advertising effort seemed inadequate. For 
example, in fiscal year 1998, the Federal Government provided 
$195 million for the Partnership for a Drug-Free America 
advertising campaign. In fact, the campaign is expected to 
spend over $1 billion in advertising over 5 years. If the 
census is as important as we say it is, then we must advertise 
it.
    In addition, we have proposed expanding the census in the 
schools program. If we can get all the schools involved, we 
should make any effort we can to get them involved. 
Additionally, we can and must increase the number of paid 
census partnership specialists and, again, target them to work 
in the areas with the worst undercount.
    My third major initiative involves reinforcing community-
based enumeration. I have proposed adding a minimum of 100,000 
additional census enumerators and target them to work in the 
hardest to count communities. By organizing enumerators into 
elite teams and focusing their efforts exclusively on reaching 
hard to count populations, we will have a far more accurate 
count in these areas.
    I have also proposed enlisting Americorp volunteers in the 
census effort. Why not use this program to reduce the 
undercount? They can go in early and stay late to help organize 
the hardest to count communities and build trust and 
partnerships.
    I have already joined with Congresswoman Carrie Meek in 
sponsoring H.R. 683, the Decennial Census Improvement Act, 
which will provide waivers to welfare recipients and retired 
military officers who would like to count their neighborhoods 
but cannot because of bureaucratic red tape that would cause 
them to lose their benefits by taking a temporary census job.
    Finally, I propose that we send a second census 
questionnaire to households and expand the languages covered. A 
second questionnaire gives another opportunity to those who did 
not respond the first time. In the dress rehearsals, this was 
shown to increase the response rate by almost 7 percent. That 
would mean that in the 2000 census some 19 million people could 
be added before we send enumerators into the field.
    The Census Bureau should also publish their census forms in 
33 languages so no significant group misses out on being 
counted because they could not get a form in their language. 
The Bureau has planned to only publish forms in five languages. 
Let us go back to 33 and add Braille in order to give everyone 
a chance to be counted.
    These initiatives are both big and small, but all will help 
make the 2000 census a success. Above all, we need to work 
together, Republicans and Democrats, blacks, whites, Asians, 
Hispanics, Americans and immigrants.
    We all have a stake in the census. While we have not agreed 
on the path to the 2000 census, we have always agreed that the 
destination is a complete and accurate count in 2000.
    I am encouraged that since I introduced the ACT initiatives 
the Bureau has shown encouraging signs of adopting many of the 
proposals, such as increasing census in the schools, increasing 
the number of partnership specialists, and increasing the 
advertising program. In fact, the Bureau has now said that it 
is working with Americorp on how they can be incorporated into 
this important constitutional duty.
    Let me say, Director Prewitt, that I do not envy your job. 
It is a most difficult one. I do believe that you are being 
pulled in two different directions. At times, from my 
perspective, it is difficult to tell where the professionals of 
the Census Bureau start and the political appointees of this 
Commerce Department end.
    I also understand that this fact may be largely beyond your 
control. However, as the Census Director, you are the one that 
has to answer the difficult questions.
    I look forward to the testimony of the witness today and 
hearing your comments on the America Counts Today initiative as 
we all work to end the differential undercount in the 2000 
census.
    Mrs. Maloney.
    [The prepared statement of Hon. Dan Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T5702.007
    
    [GRAPHIC] [TIFF OMITTED] T5702.008
    
    [GRAPHIC] [TIFF OMITTED] T5702.009
    
    [GRAPHIC] [TIFF OMITTED] T5702.010
    
    [GRAPHIC] [TIFF OMITTED] T5702.011
    
    [GRAPHIC] [TIFF OMITTED] T5702.012
    
    Mrs. Maloney. Thank you.
    Every American counts, so we must count every American 
using the most modern scientific measures.
    Mr. Chairman, I was truly surprised and I must protest your 
statements on the ``two-number census.'' Eighteen months ago, 
it was the Republicans who wrote into Title XIII, the 
requirement to have a two-number census. I have a quote from 
the 1997 appropriations bill. This was the language that was 
put into the bill. And at the time, you spoke out against a 
one-number census.
    Do you have his quote from that?
    So quite frankly, I am surprised to now hear you criticize 
the Census Bureau for trying to comply with the law, the law 
that the Republican majority wrote, and the Supreme Court 
ruling.
    I say let us let the Census Bureau do its job and keep 
politics out of how we count our population. And let us count 
every American.
    The Supreme Court ruled that Congress placed limitations on 
the Census Bureau's ability to use modern methods for better 
accuracy. It said congressional apportionment needed to be 
carried out by the old methods and it cited a law, but the 
court stated that besides apportionment, which is the 
distribution of seats among the States, we should allow the 
Census Bureau to be as modern and as accurate as possible. And 
I would like to put into the record right now the law, Title 
XIII, that the Republicans wrote calling for the two-number 
census and your particular quote at the time.
    Now you have come forward with many new ideas, but the time 
for these ideas or proposals, which are just proposals, they 
are not laws, they are not thought out, was 2 years ago and we 
are really past adding bells and whistles to the 2000 census 
and without specific legislative proposals, it is very 
difficult to say what effect any of these proposals would have.
    The only proposal that you have made specifically you 
rammed through the subcommittee only days after it was 
introduced and I would say the ink was still wet.
    I am glad that you are supporting Mrs. Meek's bill. She 
introduced it in 1996. I really know that every Democrat will 
support her bill. I understand that Senator Moynihan intends to 
introduce a companion bill in the Senate. And I think her 
bill--and I am glad you support it--is a very good idea.
    But let us be very clear, it will not do anything to truly 
address our biggest problem, the racial differential and the 
fact that the old methods of counting will never be as accurate 
as modern scientific ones, no matter what we do.
    The most glaring problem with your proposal, or all of your 
proposals if they were fleshed out or if they were worked out, 
is that they will not address this real problem.
    In 1990, there were 8.4 millon people missed in the census 
and 4.4 million people counted twice. Nearly 70 percent of 
those missed were in households that were counted. And for 
African Americans, 80 percent of those missed were in 
households that were counted.
    Adding housing units as your local review bill calls for 
does not address these problems.
    Increasing the advertising budget, studies have shown, will 
not help to count those who are missed and it will not 
eliminate the millions who are counted twice. At best, it can 
improve the mail response rate.
    A grants program might raise awareness, but it is not 
likely to get people counted in the right place on April 1st.
    We have done the hard work on Representative Meek's bill. 
My staff and Senator Moynihan's staff have worked with her and 
with your staff and I hope that you will have a markup this 
week and that it will be a signal of the beginning of a 
bipartisan 106th Congress we have been hearing so much about.
    As part of that bipartisan effort, Mr. Chairman, I would 
urge you and your colleagues to please discontinue your attacks 
on the professionals at the Census Bureau. You have called the 
Census Bureau professionals statistical shills and more 
recently accused them of ``peddling snake oil.''
    The speaker has called the Census Bureau experts 
hypocrites. A Republican foundation funded by the Republican 
National Committee, has gone as far as to compare the Census 
Bureau to the Mafia. What is next, Jerry Springer?
    These kinds of attacks are unprofessional and they are just 
demeaning to everyone. We can have policy disagreements without 
resorting to name calling.
    The opponents of a fair and accurate census decided to 
fight the census plan in the courts. Well, as a result of the 
Supreme Court decision, the census is going to cost $2 or $3 
billion more and be less accurate, at least for purposes of 
apportionment. You cannot escape these sad facts by attacking 
the professionals at the Census Bureau.
    I would like to really end by clarifying one point and ask 
that my comments in full be put in the record.
    The Supreme Court decision was very clear. It touched only 
apportionment. It clearly stated that more accurate numbers 
using modern scientific counts could be used for other 
purposes, such as good data, distribution of funds to our 
localities and redistricting within a State.
    And I would suggest that we should let the professionals at 
the Census Bureau do their job. I would suggest that most 
Americans would prefer that professionals conduct the census 
and not politicians.
    So I really hope that you will in a bipartisan effort 
support the professionals at the Census Bureau and at the very 
least stop the name calling.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T5702.013

[GRAPHIC] [TIFF OMITTED] T5702.014

[GRAPHIC] [TIFF OMITTED] T5702.015

    Mr. Miller. Mr. Davis, do you have a very brief opening 
statement so we can proceed?
    Mr. Davis. Yes. Thank you very much, Mr. Chairman, and I 
would want to echo some of the sentiments expressed by the 
ranking member.
    I also want to thank you for calling this hearing regarding 
initiatives designed to increase the accuracy of the 2000 
census. I am also pleased that you have decided to hear from 
the Census Bureau regarding the issue of post-census local 
review and the nine additional activities that you proposed 
today to improve the accuracy of the census.
    First of all, let me state that no one can be opposed to 
ideas that seek to improve the accuracy of counting the people. 
However, as the census date fast approaches, it is important 
that we find consensus on one plan and not duplicate efforts 
that are already under way.
    Several of the initiatives embodied in the America Counts 
Today proposal by you seem to be already under consideration by 
the Census Bureau. If that is the case, then I do not see the 
need for the initiatives aside from pure discussion. 
Nonetheless, I look forward to hearing Dr. Prewitt's comments 
regarding the initiatives that have been proposed.
    In addition, as a former city councilman and Cook County 
commissioner, I can really appreciate the zeal to allow local 
governments a last opportunity to review census data for 
errors. After all, as a local government, the opportunity to 
have one last chance to increase your count is too tempting to 
pass up.
    However, based on the testimony that I heard at the last 
hearing regarding post-census local review, I am not convinced 
that it worked that well in 1990. Most of the communities that 
participated were displeased with the process and less than 20 
percent of the governmental units participated at all.
    Thus, the Census Bureau's comments regarding this issue 
would be noteworthy because I remain concerned about a serious 
undercount, especially in rural and minority communities.
    Finally, I am pleased that within the initiatives proposed 
is a recommendation for a waiver to allow individuals who 
receive Federal assistance to work as part-time enumerators 
without having their benefits affected. Therefore, I commend 
you and Representative Meek for the work on this legislation.
    Again, I look forward to all the witnesses and appreciate 
your calling this hearing today.
    Mr. Miller. OK. Mr. Prewitt, Dr. Prewitt, if you would 
stand and raise your right hand and I will swear you in.
    [Witness sworn.]
    Mr. Miller. Dr. Prewitt, you have an opening statement?

  STATEMENT OF KENNETH PREWITT, DIRECTOR, U.S. BUREAU OF THE 
                             CENSUS

    Mr. Prewitt. Thank you very much, Mr. Chairman, Mrs. 
Maloney, Mr. Davis, especially for this opportunity to present 
and answer questions on the census 2000 operation plan first 
sent to this subcommittee 6 weeks ago and subsequently refined 
to incorporate the evaluation based upon the Census Bureau's 
dress rehearsal experience.
    I appreciate as well the opportunity to comment on Chairman 
Miller's 10 suggestions for how to improve the census. Later in 
my comments I will divide this 10-point list into two 
categories.
    On seven of the items, we welcome the approach taken by the 
chairman. They are consistent with what the Census Bureau has 
learned about how to strengthen the census and we obviously 
readily embrace a more extensive advertising campaign, an 
effort to reach 100 percent of the Nation's schools, greater 
resources for the partnership program, additional enumerators, 
partnership with Americorp volunteers and the waiver 
initiative. And in each of these areas, if time allows, I can 
outline what the Census Bureau has already itself initiated.
    On three of the items, the second mailing, the language 
initiative, and local government review of mailing addresses, 
the Census Bureau believes it has presented a superior program 
than the way in which the chairman has set forth his views.
    Indeed, in some instances, if legislated in the manner 
before you, these proposals would disrupt census 2000 and could 
even put it at risk. I will have to express those views rather 
strongly. I will, of course, allocate more time to those three 
in which there are differences than the seven on which there is 
general agreement.
    But, first, if I may, a word about the census. It has 
unique features making it one of the most complicated 
operations conducted by the U.S. Government. Think of it as a 
three-dimensional task. It is a count, it is an address list, 
and it is a date.
    We have to count every resident of the United States, 
estimated to be about 275 million in 2000. We have to identify 
every residential address in the United States, estimated to be 
about 120 million in 2000. And then we have to assign the 275 
million people to the 120 million addresses on a fixed, single 
date, April 1st. Each of these operations is enormous.
    People are on the move, addresses come and go and this 
movement and transformation does not conveniently pause just 
because census date is April 1st.
    It is because the task is huge and complex as you have 
acknowledged, and I appreciate that the Census Bureau is very 
careful in how it proceeds. To the extent possible, and 
especially for procedures not used in prior censuses, we test 
everything and weigh what works and what does not. Hours of 
deliberation, even argument, precede a decision to build any 
given procedure into the census.
    Census staff takes turns challenging each other to prove 
the merits of a given operation. Nothing is haphazard, nothing 
is casual. Every step is carefully, deliberately considered.
    This lengthy process, which started for the 2000 census 12 
years ago, just as in 2000, we will test procedures that might 
be incorporated in 2010. We select and discard based on one 
overriding criterion: Will this procedure or operation lead to 
a more accurate and complete count?
    Selection among alternative procedures is based not on what 
is more or less difficult, but what is more or less productive. 
To suggest that the Census Bureau excludes a particular 
procedure because it would be too much trouble reflects a 
serious misrepresentation of the dedication and commitment of 
the Census Bureau career professionals.
    Then when all of the pieces are put together, when the 
whole is assembled, testing starts all over again, for now we 
must determine how well the integrated system will work, not 
just the individual pieces.
    As the chairman knows, because he visited our beta testing 
sites in Suitland, this, too, is a painstaking task. We 
currently have in test 25 major software systems. They not only 
have to work in their own terms, they have to fit together.
    We have to track 175 million forms, pay hundreds of 
thousands of workers, monitor tens of thousands of partnership 
programs, produce 12 million maps. Every step, every operation, 
every procedure is at a huge scale and is interdependent with 
every other step, operation or procedure.
    This operational plan, as refined in this update, was 
submitted to you 6 weeks ago. It is a census plan. This census 
plan, as you know, is now being documented in excruciating 
detail in what the Census Bureau terms its master activity 
schedule.
    The master activity schedule is 4,000 lines of individual 
code, but it is more than that. It is a software program that 
shows how each one of these individual steps connects with 
every other step in the census. Every procedure links to 
previous procedures. Every procedure links horizontally to all 
other procedures and forwards to dozens of other procedures.
    This morning, I sat in what we call our lock-up room, 
windowless, in the basement of, as you know, not a very nice 
building. Fifty people down there tracking every single line of 
this code to make sure that it fits together, nothing is left 
out, no mistakes are made.
    When completed in approximately 2 weeks, it will be a very 
substantial set of detailed operations of how to conduct the 
census. The point is we have to sort of establish these 
procedures now.
    I beg the subcommittee, please do not impose on us the 
burden of going into the census with just in time programming, 
which we will have to do if we add things once this is 
finished. Do not impose on us the burden of going in with 
untested procedures or with additions whose consequences for 
other operations will not be discovered until they happen. The 
operational machinery that constitutes a census is not 
something to be taken lightly.
    Now, you have asked me to focus on procedures to enhance 
traditional enumeration procedures and also to comment on the 
10-point list of suggestions under ACT, America Counts Today.
    Mr. Chairman, I intend no disrespect, but I do have to 
emphasize that ACT does not itself constitute a census plan. It 
is a series of isolated initiatives. I do not make light of 
these initiatives and I have already indicated that we readily 
embrace seven of them. I only suggest that they are not a plan.
    For example, they speak to only a tiny part of the huge 
operation described in census 2000 as the master address file. 
Except indirectly and, in this instance, not helpfully, they 
have little to do with the enormous optical scanning operation 
planned for census 2000. They do not help us with the difficult 
issue of unduplication, with the operations needed to validate 
the housing units that are vacant, and so on and so on.
    Again, we welcome seven of the initiatives, have serious 
reservations about three, but more generally, I have to 
describe them for what they are: isolated suggestions. They are 
not a census plan.
    This, Mr. Chairman, compared to this, is what turns 
something into a census plan that has to be managed and 
operated with something in the multiple thousands of people, as 
we all know.
    Take, for example, how to reach the linguistically isolated 
in our population. We welcome the chairman's interest in this 
most difficult area and can assure the subcommittee that we 
intend to be as linguistically friendly as we possibly can.
    We do, however, believe that the program set forth in the 
operational plan reaches Mr. Miller's goal more efficiently 
than printing census forms in 33 languages.
    We are printing forms in six languages that account for 99 
percent of all of the households in the United States. Does 
this mean that we are indifferent to the other 1 percent of the 
households? Which speak, by the way, not just 27 additional 
languages, but about 120 different languages over the mean six.
    The Census Bureau gave a lot of attention to how to reach 
these population groups. But, of course, it wanted to do so in 
a manner that did not place other census operations at risk, 
such as how many pages of the form can be optically scanned.
    We subjected this issue to what we call a business 
analysis, 28 pages of detailed analysis listing all the pros 
and cons of not just one but four major alternatives. In the 
end, we designed a careful operation to reach those 
linguistically isolated households.
    I invite you to study it carefully before leaping to the 
conclusion that we did not give careful consideration to the 
idea that is imbedded in the draft legislation before this 
committee.
    We did consider that idea. We did not reject it because it 
was too hard. We rejected it because it would not do the job. 
Instead, we have set forth an integrated language program that 
involves 15,000 paid temporary staff positions in the 
questionnaire assistance centers drawn from a wide range of 
language communities, as well as the preparation of 15 million 
assistance guides in several dozen languages.
    We have also included a language focus in our partnership 
agreements with community organizations. All of this to reach 
that 1 percent of the population which does not speak one or 
more of the six languages already covered in our census 
operations.
    Were the bill before you to pass, the following would have 
to happen.
    We would have to renegotiate all of our largest contracts, 
including nearly 20 printing contracts, the contracts for our 
telephone questionnaire assistance program, for our data 
capture initiative, and for the data capture service centers.
    The entire workflow for the receipt, image capture, 
transcription and keying from paper would have to be modified. 
Let me offer just one simple example.
    Here is what we call our pre-census letter, our letter to 
alert all American households that the census form is coming. 
It will go to 120 million households. The wording has been 
carefully designed to minimize confusion and to maximize 
cooperation.
    After internal discussion, it was decided that the best way 
to announce the availability of the five languages other than 
English would be to put a very small set of reminders down here 
at the bottom and then on the back list in the five languages 
how to get a questionnaire in those languages.
    I would invite you, if you would like to persist with this 
legislation, to imagine how we are now going to do this to 
announce to the American public that there are 33 languages.
    The letter will not work. It becomes a different document 
and once that document hits the addresses, 99 percent of the 
households are now getting a piece of paper which bears not at 
all on their conditions.
    That is not the way we would design a census. We would do 
it in such a way as to try to minimize confusion, maximize 
cooperation, and indeed put in place a mechanism that will 
reach all of those linguistically isolated communities.
    Similarly, with the second mailing, which I will not 
consider here in detail. But, again, there is research, there 
is analysis, there is deliberation, there is judgment, there is 
the dress rehearsal experience, all of which indicates that the 
value of the second mailing is outweighed substantially so by 
the risks that it introduces into other census operations, not 
the least of which is the deterioration in data quality and 
non-response followup.
    The targeted mailing is operationally impractical. The 
blanket mailing postpones non-response followup by 
approximately 6 weeks. Also with the post-census review, which 
I have discussed in some detail in my written testimony why the 
Census Bureau replaced a procedure that worked poorly in 1980 
and 1990 with a much stronger, more extensive procedure in 
2000.
    I should take no more time in these opening comments. I 
appreciate the time that you have given me, but I do hope that 
the question period will provide time to examine why the Census 
Bureau's carefully considered programs should be the ones that 
we move forward at this point.
    Thank you.
    [The prepared statement of Mr. Prewitt follows:]
    [GRAPHIC] [TIFF OMITTED] T5702.016
    
    [GRAPHIC] [TIFF OMITTED] T5702.017
    
    [GRAPHIC] [TIFF OMITTED] T5702.018
    
    [GRAPHIC] [TIFF OMITTED] T5702.019
    
    [GRAPHIC] [TIFF OMITTED] T5702.020
    
    [GRAPHIC] [TIFF OMITTED] T5702.021
    
    [GRAPHIC] [TIFF OMITTED] T5702.022
    
    Mr. Miller. Thank you, Director Prewitt.
    We will work under the 5-minute rule, but we will have more 
than one round, probably. I do not know why it is not working, 
so we will just do the best we can.
    First of all, I get concerned that the statements by the 
minority and by the Census Bureau that the Congress is almost 
irrelevant to this process, it is kind of offending.
    We do not know the details of the plan. Yes, you have a 
book there, but the details are not there. You know that. We do 
not have a budget. Two weeks you say we will have it and we are 
supposed to wait until it is out and then we are supposed to 
get involved in it.
    Well, you know, the agreement back--actually passed into 
law back in 1997, was that you were going to have a dual track 
and be prepared.
    You were not there, I know, and you just went to the Bureau 
in October, but we should have been prepared and this 
information should have been out months ago and I think you 
would have been pleased to have had it out months ago. But 
instead, the administration, the Clinton administration and the 
Bureau have decided to only go on one track, unlike what the 
law said back in 1997.
    And so we all of a sudden have to scramble now to put 
together the plan and it is unfortunate that we are having to 
wait this long and we cannot wait any longer and we need to 
move forward because, as I have said before, we all agree.
    I think we want to focus today on what we can do to improve 
the thing and I am glad to see that a number of the ideas are 
going to be acceptable; that will help, because we are trying 
to reach the same goal.
    But let me start off with the post-census local review. We 
did have a hearing on that issue. And I am just still baffled 
by the opposition to it. This is in effect an audit after the 
mailings have gone out.
    What you are doing with LUCA is very fine and I am very 
pleased that it is there and that is good. You know, there are 
a lot of good programs there, and that is one that we 
compliment.
    But it does not replace, in my opinion, post-census local 
review. This all boils down to an issue of trust. We have been 
saying trust for the past year and a half and there is a real 
trust problem here. And if people do not trust the numbers, we 
have a failed census. And what is wrong--I do not see the harm 
of post-census local review. I do not see what the problem is 
in having this post-census local review.
    The LUCA program has been successful to some extent, not as 
many as we would like to have participate, but I think we can 
build upon it and do a better job.
    Tell me why--I do not understand what damage does it do? 
What harm does it do to the thing?
    Mr. Prewitt. Mr. Miller--Mr. Chairman, excuse me. I am 
still learning the protocol. This is my first hearing.
    I am a little confused why this is not a plan.
    Mr. Miller. Well, do you have a budget with the details in 
it? Do you have the master activity schedule?
    Mr. Prewitt. I am sorry, I am just really trying to learn--
well, as I said, the master activity schedule is not a plan, it 
is something that turns this into a set of activities.
    This is detailed about our coverage improvement followup, 
our enumeration strategy, our advertising strategy, our dress 
rehearsal results. It seems to me like this would be a plan. I 
am just confused about what in your mind constitutes a plan.
    Mr. Miller. Well, we have a lot more detail on the illegal 
plan that the courts threw out. That detail was provided. Now 
this one we are scrambling to put together with the detail we 
had before.
    Mr. Prewitt. We are actually----
    Mr. Miller. Do you think that is a complete plan that you 
can go out and--do you have a budget? Is that not part of a 
plan? How much money are we going to spend? We do not know yet. 
I just found out last week you are going to have an accuracy 
and coverage evaluation [ACE]. Is a budget not part of a plan?
    Mr. Prewitt. I am simply trying to understand----
    Mr. Miller. Well, the details are missing, is all I am 
saying. There are a lot of parts there.
    Mr. Prewitt. Just so we understand that we do have----
    Mr. Miller. You have a plan?
    Mr. Prewitt. We have some serious details here and----
    Mr. Miller. But a lot of the details are missing.
    Mr. Prewitt. Serious details on many of the things that you 
have now put into your ideas.
    Mr. Miller. OK.
    Mr. Prewitt. Want to make sure we are talking about the 
same thing. We are talking about what is a plan. The post-
census LUCA, would you like for me to comment on this? Because 
I would have to have some clarification on this.
    My current information says that the cooperation with our 
current LUCA program covers about 86 percent of all the 
addresses in the United States, so I am just not sure--I do not 
know where you--I just do not know what this is based on.
    Mr. Miller. OK. All right. But what harm does the post-
census local review do? What harm is done, what damage is done 
if we do the post-census local review? That we give communities 
a chance to review the numbers?
    Mrs. Maloney said--there were 124,000 people added in 1990. 
Well, they are not important to Mrs. Maloney apparently because 
we should count everybody.
    Mr. Prewitt. Oh, yes.
    Mr. Miller. Everybody says everybody should be counted. 
Tell Mayor Archer that 45,000 people did not matter. Tell 
Congressman Petri up in Wisconsin that some ward in his area 
was left out, I do not know the details of it, he thought it 
was just a computer error. Mistakes are made. You are not 
perfect, obviously. But we want to catch mistakes. We want 
local communities to trust the numbers.
    Just what harm is done having this? This is in addition to 
LUCA.
    Mr. Prewitt. Well, let us try again, try to establish what 
LUCA does. LUCA is an attempt, and we think a reasonably 
successful attempt thus far, though we have much more work to 
do and we will continue to do it right up until March 31----
    Mr. Miller. LUCA is good. We are pleased with it.
    Mr. Prewitt [continuing]. To list every address in the 
United States and actively--actively involve local government 
in putting together that address list.
    Mr. Miller. That is good.
    Mr. Prewitt. But that is what the post-census LUCA was 
about. The post-census LUCA was to say did we get every address 
in your community?
    Mr. Miller. Right.
    Mr. Prewitt. And we are now doing that before we--before we 
go to the field. It seems like a perfectly reasonable thing for 
us to be doing.
    Mr. Miller. OK. My time is up, but it sounds like you say 
we are perfect and we do not make mistakes, there are no 
computer errors. Mistakes happen and why cannot local 
communities have a chance to check the numbers? It is an audit 
after the fact.
    I came from the private sector when I came into Congress 
and we had audits. I served on a lot of boards of non-profits. 
We always had an audit.
    If someone came to me as the chief financial officer of an 
organization and said, ``Oh, we do not want to have an audit, 
we will save some money, we will skip that audit,'' I would be 
really suspect. What are you trying to hide? This is the type 
of doubt to erase.
    Why are we afraid to let a local mayor, county commission, 
look at the numbers? I do not understand that danger.
    Mr. Prewitt. I am sorry, Mr. Chairman----
    Mr. Miller. I am talking about post-census local review.
    Mr. Prewitt. We are talking about numbers, not addresses. 
You are asking----
    Mr. Miller. Well, post-census local review.
    Mr. Prewitt. You are asking us to ask 39,000 jurisdictions 
to look over our actual counts? Population counts?
    Mr. Miller. The similar program we had in 1990.
    Mr. Prewitt. Population counts, not addresses.
    Mr. Miller. The housing counts.
    Mr. Prewitt. The housing counts? Or the people counts?
    Mr. Miller. The same way we did it in 1990, basically. We 
will allow a little more time.
    Mr. Prewitt. I am just trying to understand.
    Mr. Miller. I am just trying to figure out what the harm 
is. I have not found the harm.
    My time is up, so we will come back, because we will do 
another round after Mrs. Maloney.
    Mr. Prewitt. OK.
    Mr. Miller. So maybe you can think about what harm is done.
    Mr. Prewitt. OK.
    Mrs. Maloney. A point of personal privilege. You mentioned 
that I thought 124,000 people did not count. I think they count 
very much, but I think the number should be much higher and 
what happened in 1990, as I understand it, is there was very 
low participation, therefore the Census Bureau came back with a 
new plan that checked housing and addresses prior that involved 
the counties and the localities, the Director just said, to the 
point of 86 percent as opposed to the 5 percent success rate 
here.
    I think that we should have for the record where these 
numbers came from, since he does not appear to know.
    Mr. Prewitt. I do not recognize them. I am sorry.
    Mrs. Maloney. I would like to just take your question and 
ask it in a different way. You said what harm will the post-
census local review be.
    I would like to ask it in the way of what will it add? Will 
it add anything to your ability to count every American?
    It is my understanding you started the pre-census to make 
the count even better, but----
    Mr. Prewitt. Well, what we tried to set forth in our plan 
is a number of coverage improvement strategies, starting with 
getting address lists right because if we do not get the 
address lists right we will not have a quality census and a lot 
of time and effort and a lot of cooperation with the U.S. 
Congress on that score. And then a series of coverage 
improvement.
    As I tried to say in my opening comments, we look at a 
whole portfolio of procedures and operations and then choose 
the ones which we think could fit within 9 months, which is a 
very, very serious constraint to make our December 31 
obligations. Pick those procedures which will maximize the 
accuracy and the completeness of the count. That is what we are 
trying to do.
    And we actually think that the procedures that you have not 
yet wanted to spend any time on, the coverage improvement 
strategies are much superior, much superior, to post-census 
local review.
    If we thought post-census local review, having already 
gotten the address list right, would be successful, we would 
want to do it. It just simply will not add up to what we think 
we have produced in its place.
    It is not as if we do not want to count everyone. We 
obviously do. We are professionals. That is our job. And we 
would be very disappointed on behalf of our professional 
responsibilities to the American public if we did not count 
everyone.
    We know it is going to be difficult in 2000. We have been 
saying that for years. We know why it is going to be difficult. 
I am sorry, I should edit myself better.
    Mrs. Maloney. I have heard some of my Republican colleagues 
say that we need a general to take over the running of the 
Census Bureau. What in your opinion would be the comments of a 
general to these added proposals at the last minute, at this 
late date?
    Mr. Prewitt. Well, Mrs. Maloney, generals sometimes speak 
in rather earthy vocabulary, and I would not want to directly 
quote.
    I honestly think that, and I would invite the subcommittee 
to ask General Schwarzkopf, who has been frequently used in 
this connection, to come and answer that question. What would 
you do, General Schwarzkopf, if just as you were going into the 
field, a subcommittee of the Congress came along and said, oh, 
we like this better than what you are talking about, we want 
you to do this instead of that.
    I think the general would say no, or words to that effect. 
And I would invite you to put that question to a general about 
what it is like to manage the largest peacetime operation 
activity, mobilization, in U.S. history.
    Mrs. Maloney. As I mentioned in my opening statement, 
because it has been rather troubling to me, the repeated 
attacks, slurs on the professionals at the Census Bureau and 
what have these attacks done to the morale of the really--most 
of whom are career professionals at the Census Bureau?
    Mr. Prewitt. Well, I think we would like to believe that 
people who use that language do not believe them. I think if we 
really believe that people did believe the language that is 
being used, the way we are being described, it would be deeply 
disappointing.
    Could I just take a minute? I want to--I would like to just 
show the subcommittee this document. This is a questionnaire 
called the Consumer Expenditure Survey, which the Census Bureau 
collects on a routine basis using, of course, modern 
statistical methods. This is the data which go into the CPI.
    The CPI goes into Alan Greenspan's head when he is talking 
about the state of the economy, as well as the Bureau of Labor 
Statistics data, which are based on census collections, of 
course, and also the industrial capacity data, which is, again, 
a Census Bureau survey.
    I just do not think that Alan Greenspan thinks that when he 
is talking to you about the state of the economy based upon 
these census data that he is peddling snake oil. I think he 
thinks he is peddling the very best data that can be produced 
by the keystone statistical agency of the United States.
    And obviously if Members of Congress really think that the 
Census Bureau when it does this kind of work is producing stuff 
which cannot be used, cannot be trusted, then we have a very 
serious problem in this society. I just do not believe it.
    So I have to tell you that the reason that morale does not 
suffer as much as you might imagine is we simply cannot believe 
that people who say that actually believe it, because they turn 
around in other parts of their job and use the data all the 
time. When they make economic policy, when they make social 
policy, when they look at the poverty rates, when they look at 
educational statistics, they are using these kind of data all 
of the time. So I cannot believe that they do not believe in 
the quality of that work.
    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Dr. Prewitt, we have had some discussion relative to the 
proposed initiative that the chairman is presenting today.
    Did I understand you to suggest that if we get into the 
business of starting with something different at this juncture 
that there are currently plans in process that would have to be 
changed, such as contracts that have been let and initiatives 
that are currently under way?
    Mr. Prewitt. Well, yes, sir. With respect to, say, the 
language program that has been suggested by Mr. Miller. we 
would simply, as I did try to say, we would have to renegotiate 
every one of our major contracts, every one of our major 
contracts. It would be extremely difficult for us to meet the 
April 1st deadline if we have to do that.
    We would have to rewrite not only this plan but all of 
these 4,000 lines of code because all these things connect to 
each other. The same thing with the second mailing. If we use 
the second mailing, we would have to rewrite every bit of this. 
We would have to start again.
    With respect to post-census LUCA, that is an entirely 
different procedure which we have not built into our plan nor 
our design.
    So, yes, I simply have to say in all candor that if we were 
asked late in the game to put in a procedure which was not 
already part of our operational plan that it could put the 
census at risk.
    Mr. Davis. You have indicated that we would probably miss 
the deadline. Do you have any projections as to by perhaps how 
much or how long it would take to renegotiate this?
    Mr. Prewitt. Oh, I think we are talking certainly weeks and 
maybe months to renegotiate the contracts and then to re--as I 
say, we already have 19 printing contracts out there. It is 
very hard for me to estimate because it depends on the nature 
of the suggestions that would be introduced or be legislated by 
the Congress and when we would learn those.
    I mean, it is one thing if these things were--you know, 
said, OK, today this is the law, we would scramble as best we 
could. If we learn that in June, it is one thing. If we learn 
it September, it is just simply something else. We are at a 
point in this census which if we do not get about it, we are 
not going to get it done. I cannot say that more strongly.
    Mr. Davis. Let us say for some reason we miss the deadline. 
I mean, other than the fact that it is a miss, what happens?
    Mr. Prewitt. Well, there are three key dates, Mr. Davis. 
One is April 1st, census day 2000. The next one is 9 months 
later, December 31st, apportionment numbers. And the next one 
is April 1st, by which time we have to have provided all 50 
States their redistricting data.
    Obviously if--and everything that we do is geared around 
trying to make those dates and we work--this morning when I was 
in the lock-up room watching these people work, the thing that 
got flashed up on the screen was aha, calendar No. 4, this 
procedure gets matched against calendar No. 4. Calendar No. 4 
is 24 hours a day, 7 days a week from April 1st to April 1st.
    They are now planning against a calendar that has no space 
in it. They are down there in that basement room arguing about 
hours and half days. If you need that half day for this, you 
cannot have it because I need a day and a half for that.
    That is the argument that is going on. There is not space 
in there. You put something in that takes 6 weeks like the 
second mailing? It is a different census.
    Could we do it? Sure, we can do anything, I guess. Would it 
be accurate? No. We would reduce accuracy at this point if we 
start trying to introduce entirely new procedures into the 
operational plan that already exists.
    Mr. Davis. So you are saying that we would get the exact 
opposite result than what is being desired, that rather than 
enhancing our ability to get accurate information, that we are 
really creating a level of confusion that would make it 
virtually impossible to get accurate information.
    Mr. Prewitt. I am afraid, Mr. Davis, that that is--I would 
not put it in quite such blunt words, but I am afraid that you 
have interpreted me correctly.
    We start with as many different procedures as we can 
imagine. We are all on the table. Then people go into rooms and 
they argue this versus that, this is going to give us more 
accuracy, this is going to give us a more complete count, and 
that is going to take 7 days, but this only takes 4 days, but 
that will take 13 days, let us do this, not that and so forth. 
That is the discussion that goes on.
    Then you put it all together and you start testing it. And 
then once it is tested, to start taking it apart is very risky. 
It means we will go into the field without the software system 
having been tested, without making sure that it integrates 
across these 25 different big software packages.
    It just is a very difficult way to do a census, and that is 
why I would go back to General Schwarzkopf. I would love to 
have him sitting here with me today and asking him what would 
you do if you were asked to make these kinds of changes to an 
operational plan at this late date.
    They are not bad ideas, necessarily. They were--the ones 
that we are not using, we think we have superior ideas. On 
languages, on the mailing, on the involvement of local 
governments in address lists, they are not bad ideas.
    We simply worked hard to put together a better version of 
that idea in our judgment, and that is what we get paid to do. 
We are doing the best job we can.
    Mr. Miller. Well, we will have another round.
    It was interesting you brought up Mr. Greenspan and the 
CPI. That was an interesting one because I have sat on the 
budget committee for 6 years and Mr. Greenspan came before our 
committee about 4 years ago and said the CPI is overstated by 
two points and went through the problems. We had hearings both 
on the appropriations committee, I served at the Bureau of 
Labor Statistics, and on the budget committee about the 
problems with it, about substitution rates, and such, and how 
they needed to update it.
    Now these are great statistical methods, but it was 
overstating CPI by two points, according to Alan Greenspan. 
Now, they are starting to correct some of these problems. So 
you bring up an illustration of statistical methods making 
mistakes and now we are acknowledging that there have been 
mistakes made with CPI. So that is a good illustration you 
brought up. I am glad that that was discussed.
    Let me go back to post-census local review. The census 
advisory committee supports post-census local review. Local 
governments--I have not found a local person that was opposed 
to it. The National League of Cities have supported it. And 
these local cities deal with this LUCA program. And the LUCA 
program is fine.
    It has not reached as many people as we would want, I do 
not think, but it has reached a fair number and we wish we 
could get more people to participate in it.
    But I am getting back to the question of what harm will be 
done?
    You know, there is a New York Times article, there is your 
quote up there, it says, ``It's an incentive for anyone to try 
to boost their numbers for either economic or political gain.'' 
What is wrong with that?
    Why should not the mayor of Detroit, the mayor of 
Charlotte, the mayor of New York City want to get numbers? And 
why should they not say, hey, you missed this block in your 
numbers?
    I do not see the harm. And it is not something that is 
untested, because you did it in 1990. You should be able to do 
a better job on it in 2000.
    Mr. Prewitt. I am absolutely certain that if we did it in 
2000 we would do a better job than we did in 1990. Everything 
that we worked with in 1990 that we have introduced into 2000 
we have improved on those procedures.
    Just quickly, on the advisory council committee that you 
have cited as well as a number of other local leaders, I think 
perhaps your staff has reported back to you that to a person, 
to a person, everyone in the census advisory committee asked 
that this not be legislated, that if they were here today they 
would be all suggesting to you that to try to legislate a 
procedure at this late stage in the census cycle is very risky 
business.
    And so I only point that out to you and if your staff did 
not mention that to you, they did not give you a full report on 
that meeting, Mr. Chairman.
    Now, with respect to this quote, the Founding Fathers were, 
as we know, unusually intelligent and when they first 
introduced the idea of a census for purposes of apportionment, 
they were very worried that the States would inflate their 
numbers and what they put into the initial design was that the 
count of the population of each State would be used for two 
purposes, one of which was apportionment and the other one of 
which was for taxation.
    And they argued and they said the reason that we want both 
of those in there is that one is an incentive to increase the 
numbers, to inflate them, and the other is an incentive to keep 
them down. And that is the way in which we have confidence that 
this procedure of asking the local governments to tell us how 
many people there are, that there will be some sort of check on 
them.
    Now, what this quote suggests, and I certainly will not--I 
will say that it is certainly a direct quote, that if you 
actually give 39,000 jurisdictions a count and there is 
anything they can do to increase that count, whether that is 
validated or not, why would they not want to do it?
    As I said in the comment that I made at the end of this 
particular quote, I was at a meeting in Albuquerque and a mayor 
of a fast growing city came over to me on the podium and said 
we have a fast growing city, we need 50,000 people in our city 
because our city depends upon retail taxes and if we get above 
50,000, then we will get a shopping mall. And he came over and 
he put his hand on my shoulder and said, Mr. Director, your job 
is to make sure there are 50,000 people in my city.
    That is not my job. My job is to find out how many people 
are in his city, which may be 47,000, it may be 53,000. My job 
is not to give him the number he wants, my job is to give an 
accurate count without an undercount, without missing the 
Hispanics.
    Mr. Waxman mentioned the number of States which lost money. 
All of them, I believe, are heavily concentrated Hispanic 
populations. It does not surprise me that they are the States 
that miss money because those are the States where we miss 
people, and we know it.
    So my job is not to go out and find the number that some 
mayor needs. My job is to find out how many people are actually 
there as best we can do, and that is our task. And, so, yes, 
you do create an incentive. Would you not admit that? Would you 
not agree?
    Mr. Miller. Right. You want the incentive, but the Census 
Bureau is going to be the judge if they are real people. The 
Founding Fathers very specifically did not trust the States, 
you are right to say that. That is the reason they were suspect 
of--they did not even know about sampling back then, but the 
concept of sampling allows for that manipulation, the exact 
thing that the Founding Fathers were concerned about is 
trusting the States with it. Now we want to trust a political 
system to get involved with it and that is what the real danger 
is.
    Mr. Prewitt. No, I think what you are asking with post-
census LUCA is you want 39,000 political jurisdictions to be 
involved in the count.
    Mr. Miller. But you will judge if they are real people. If 
they are not real people, they are not going to be counted. But 
they should have the right to say, hey, you missed somebody. 
You do not think they should have that right now because you 
are not going to make any mistakes. The Bureau--there are a lot 
of professionals there, I do not want to criticize them----
    Mr. Prewitt. Thank you.
    Mr. Miller. But there are going to be mistakes. You are 
going to have to admit--but now you are saying we do not want--
we do not trust the local communities to make that--that is 
what you are saying. You just do not trust them, and I do not 
understand--I have not found a reason we should not have it. 
Actually, we need----
    We are going to go through a couple rounds here, so let me 
go to Mrs. Maloney.
    Mrs. Maloney.
    Mrs. Maloney. Dr. Prewitt, one of the greatest concerns 
that State and local governments have in regard to local review 
is to make sure that all new construction is counted and 
actually, Mr. Chairman, this was one of the items that was 
raised in our hearing in Arizona, where there is a tremendous 
amount of new construction taking place. And they want to make 
sure that it is counted up to April 1, 2000; that it receives a 
census form.
    Do you agree that this is a legitimate concern and are you 
doing anything in the Census Bureau to address it?
    Mr. Prewitt. Mrs. Maloney, two things have led to that 
concern, one of which is our dress rehearsal experience that we 
did encounter, especially in Sacramento, as well as in South 
Carolina, a large influx of new construction and then the 
recommendation of our various advisory committees.
    So we have now included a procedure that allows the local 
governments to add addresses, especially of new construction 
and recently inhabited new construction, right up to March 31, 
2000. That is a difficult procedure. We embrace it.
    It has the nice property that it slides into procedures we 
already had in place and that really is important because we 
are going to have duplication. That is, two things happen 
between late fall and early spring, late fall of 1999 and early 
spring of 2000.
    Two things are happening, one of which is a postal casing 
check, where we go to every post office and ask them to take 
our address list and see if they can add anything to it. That 
should have found all of that new construction. But we were not 
convinced that would find all the new construction, so we added 
a separate procedure which goes back to the local governments, 
back with our address list. Even if they did not participate in 
LUCA, they are going to get this opportunity and say are there 
any new housing units since we finalized this address list. If 
so, it puts it into the mail stream.
    The problem is, just so you know how complicated this is, 
two things are now feeding into that mail stream. One is the 
postal casing check and one is the local government. There will 
be duplications. Some addresses will appear twice. We have to 
unduplicate those and then we have to send an enumerator out to 
make sure the address really is there, which we will do, and 
then to enumerate the residence.
    So, yes, we have now put in place something that slides 
into our procedures in a way to bring that address list up to 
date to the very last minute before census day.
    Census day is really important. You have to count people on 
April 1st. If somebody dies the afternoon before it, they 
should not be counted. If a baby is born the next day, they 
should not be counted. Everything has got to happen on that 
single day or we do not have an accurate count.
    Mrs. Maloney. Could you comment on two areas? In 1990, very 
few local governments participated in a post-census local 
review. Could you comment on why you think so few participated? 
I understand you got the participation up to 86 percent with 
the pre-census?
    Mr. Prewitt. Yes.
    Mrs. Maloney. That is really quite remarkable.
    Mr. Prewitt. Yes.
    Mrs. Maloney. And have you identified, your professionals 
or the department, identified that if you had additional 
resources what would you institute before post-census review if 
resources were available that would make the count more 
reliable or accurate? Do you have any other ideas that you 
would like to have added?
    Mr. Prewitt. Well, with respect to the local involvement in 
our address list, we indeed are very pleased this time around. 
We think we actually put together a better program, by far a 
better program, and one which had more time built into it, 
which had more interaction with local governments, in which 
they recognized how critical it was to get that address list 
right before went into the field. And I think that is why 86 
percent of the addresses in the United States have fallen into 
that program.
    I should say, by the way, I do not interpret 14 percent as 
unimportant. My guess is some communities did not participate 
because they realized we would do a good job without their 
participation, that maybe the address list is so 
straightforward, as they are in some communities.
    So I am not even anxious about the ones that did not 
cooperate because we think every city that wanted to cooperate, 
needed to cooperate, had the opportunity to do so.
    Additional resources? Let me say a word about resources. 
The Census Bureau appreciates the generosity expressed by 
Congressman Miller and other Members of Congress saying we will 
pay whatever it takes and so forth. And we do appreciate it 
because we are under an enormous burden to be accurate and to 
fully count.
    On the other hand, the Census Bureau does not want to spend 
more money than it needs to. We have a responsibility to the 
American taxpayer as well as the American public and we do not 
want to put in procedures which just because they seem to make 
sense on the surface but would be costly but in our judgment, 
our professional judgment, they will not add accuracy and they 
will not add to the count.
    So we actually all the time are looking at something and 
asking is it going to give us real value for the money or are 
we going to get real productivity out of this procedure.
    So you will find us in some instances suggesting that 
perhaps for some reasons we should not spend as much money as 
perhaps would be coming out of one source or another.
    We--well, let me stop there.
    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Dr. Prewitt, we know that advertising is a substantial part 
of the overall process, yet we know that advertising is not 
necessarily going to give us the bottom line results that we 
are looking for.
    Are there categories or who are the categories of people 
who are likely to be least impacted by the advertising 
campaign?
    Mr. Prewitt. Mr. Davis, the advertising campaign is 
designed to increase the mail response returned because every 
extra percent we get in mail response returned lessens the 
pressure on us to go out and enumerate in what we call our non-
response followup.
    The hard to count, the really hard to count, are a very 
special--once you get into that, you have gotten 94 percent, 
you have gotten 96 percent, you have even gotten to 97.5, it 
really gets difficult for all of those extra--the additional 
hard to count people. We do not anticipate that the advertising 
campaign will be particularly successful at reaching those 
people.
    Let me put it this way. The advertising campaign rests upon 
a model of civic engagement. It rests upon an idea that we 
should make people aware of the census, educate them to the 
importance of it and engage it. The partnership program rests 
upon the same kind of general model.
    The problem is that the hard to count, the really difficult 
to reach, the alienated, the angry, the ``I don't want to be 
bothered'' people are the same people that are going to be hard 
to find in a partnership program, the same people who are going 
to be hard to reach with an advertising strategy.
    So I welcome Mr. Miller's interest in expanding and 
strengthen-
ing our partnership program. We really deeply believe in it. I 
welcome the commitment to expanding the advertising program, 
but it would be imprudent of me to suggest that that will solve 
the fundamental problem that we will have a differential 
undercount.
    There will be certain population groups in the United 
States which will be counted, they will be racial groups, I 
regret to say, because they are the groups which live in--two 
things go into the undercount. There are housing attributes, 
crowded housing, housing that does not have regular addresses, 
irregular housing patterns, and then there are person 
attributes, poverty, lack of education, unemployment, high 
mobility.
    Certain population groups, particularly racial minorities 
in this society, have a preponderance of both the housing 
attributes which make it difficult to count and the personal 
attributes which make it difficult to count. Put those things 
together and it is simply very difficult to find 100 percent of 
people who have that set of housing attributes and that set of 
personal attributes.
    So the advertising campaign, the partnership program, the 
promotion efforts really matter. It will turn this census, I 
hope, into a census the American people will participate in, be 
proud of, but it will not reach the hardest to count and they 
will be differentially spread across different racial groups.
    Mr. Davis. What about second mailing?
    Mr. Prewitt. Well, second mailing is a--the Census Bureau 
actually tested it and thought about it and did a lot of 
research. I brought a lot of that research with me today, if 
you would like to, peruse it on the second mailing.
    The problem with the targeted mailing, which is the one 
that we initially wanted to do, which is the most appropriate, 
it is very--the targeted mailing adds 6 weeks, so we simply had 
to set it aside because what you have to do is forms have to 
come in, you have to then code them all, find out who answered 
and who did not and then find the ones that did not, re-mail 
it, wait for those to come in.
    We went to our printing contractors, we went to other of 
our consultants. They all said 6 weeks, which would be a real 
delay. If you wait 6 weeks before you go out to do non-response 
followup, the data in non-response followup begins to 
deteriorate because people forget where they were. They have 
memory lapses. They forget who lived in that apartment complex 
3 months ago. And we are trying to find 40 million households.
    So there is a real consequence of the targeted mailing. 
Therefore, blanket mailing closed that time down. We tried 
blanket mailing, it produced duplicate responses, it produced a 
lot of confusion. We simply could not do it.
    The other thing to bear in mind about the second mailing is 
that is the part of the population which almost cooperated. By 
definition, they are the ones that, well, oh, I forgot, I 
should have, and so forth. We are going to find them. We are 
going to enumerate them. We wish they had mailed it in in the 
first place, but we are not going to miss them.
    That is not going to help us with that last 3 or 4 percent, 
that hard to count population group and we know that half of 
that count is going to be children, that we are going to find 
not 100 percent of the African Americans but 95 percent. We are 
not going to find 100 percent of the American Indians, but 
maybe 88, 90, 90 percent. The same with the Hispanics, 95 
percent.
    That second mailing would not touch that problem at all.
    Mr. Davis. You have given me a good feeling that you are 
going to put forth and that we are going to put forth our best 
effort, and I think it is most unfortunate that without 
utilization of the scientific knowledge that we have, in spite 
of all you are going to do, we are still going to come up 
short.
    Thank you very much.
    Mr. Prewitt. Thank you, Mr. Davis.
    Mr. Miller. Let me go over some of the other areas in ACT 
so that we can continue this.
    Mr. Davis brought up advertising. Have you got a proposed 
advertising budget yet or is that going to be a couple of weeks 
before we get it or will Mr. Daley have it tomorrow or--it was 
$100 million originally and--you know----
    Mr. Prewitt. Mr. Miller, as you appreciate, in this hearing 
I am really not supposed to be talking about budget numbers.
    Mr. Miller. OK. Fine. But there is going to be an increase 
from the original plan. Is that right? In advertising?
    Mr. Prewitt. We hope so.
    Mr. Miller. OK. Let me--see, this is what is frustrating. 
We do not know what is happening.
    Mr. Prewitt. Well----
    Mr. Miller. We ask for details and--do not change it, but I 
cannot show you the details until it is over and then it is too 
late. That is kind of an interesting strategy being used. But 
at any rate, let me ask you one thing.
    We had hearings in Miami and in Phoenix and, for example, 
with the Haitian community in Miami, in Congresswoman Meek's 
district, their great concern is to be able to have it as 
tailored to their community as possible. When you advertise, 
you should advertise on the Haitian radio station.
    Now, I know during the dress rehearsal, for example, up in 
the Dakotas on the Indian reservation, the advertising was not 
as tailored to that Indian reservation as possible.
    How much flexibility is going to be in the advertising so 
that it is not just the New York ad agency doing it, but so 
that the Haitian radio in Miami can have some tailored 
advertising? Is that going to be possible?
    Mr. Prewitt. Yes, sir. Yes, sir. In great detail and in 
great abundance.
    Mr. Miller. OK. Because I think that is true for--anything 
we can, the more flexibility at the local level, and that is 
the partnership specialists and such. So you are going to be 
increasing the number of partnership specialists, I think I 
have seen some numbers, fairly significantly because, you know, 
working with the local community is very important. So you are 
increasing the partnerships, right? The specialists?
    Mr. Prewitt. Yes, sir.
    Mr. Miller. Let me talk about the language for a minute. 
The Haitian community, you know, they speak Creole within a lot 
of the Haitian community, especially the new ones just coming 
over. How are they supposed to complete a form?
    Does someone have to--you have instructions, but they 
cannot--they have to have someone else do it for them? Is that 
what you are saying?
    Would it not make it easier if we could let at least the--
it does not have to be everybody in the country has a form in 
Creole, but within the Haitian community, in Miami in 
particular, the partnership specialists could help target and 
make them available? Why would we not want to make it easier 
for the Haitians to fill out the form?
    Mr. Prewitt. Well, that is what our telephone assistance 
centers will do and our 15,000 other specialists. We will draw 
them out of those language communities. We will work with them 
with our partnership program and other activities, work with 
them to go back into those communities where people have not 
responded. We are talking about a small number, but 
nevertheless we want to find them all.
    So I do think that our language program--quite honestly, 
Mr. Chairman, I really think that our language assistance 
program is as comprehensive and thoughtful as it can possibly 
be to reach even that last less than 1 percent of the 
population.
    And I just invite you to think with us about the problem of 
taking--you have a Creole population in Miami and we are now 
sending a form up to Alaska that says, aha, we can give you a 
Creole questionnaire. It is not a good way to go about doing 
this business. You want to be flexible and targeted.
    I did read the testimony from the Miami hearing, Mr. 
Miller, and I think the reason that they came back to you and 
back to you and back to you on sampling is because they were 
afraid all those people would not be counted unless we had 
something like an accuracy in coverage evaluation.
    Mr. Miller. But the courts have ruled, we are going to do a 
full enumeration, and the concern we have is the two-number 
census. I think you agree the Supreme Court did rule and we are 
going to a full enumeration.
    Mr. Prewitt. Oh, absolutely.
    Mr. Miller. OK.
    Mr. Prewitt. Here it is. Here it is.
    Mr. Miller. OK. So we can talk about sampling, we can talk 
about sampling, but the fact is we need to do a full 
enumeration and so--I just--how about people that are blind? I 
guess they will have to do it by telephone. They are not 
allowed to fill out a form because we do not offer it in 
Braille.
    But I would think in Congresswoman Meek's district it would 
be that she has a fairly high concentration, I do not know what 
the number is, of Haitians and we should make it easier rather 
than more difficult. So let me go to a couple of the other 
issues.
    The Meek bill that Congresswoman Meek talked about. Do you 
all support that bill? I was reading your testimony, I was a 
little--I was not sure. Do you support that legislation that 
Congresswoman Meek has proposed?
    Mr. Prewitt. We know that recruiting the enumerators is a 
huge task. We have already had very substantial experience and 
success at welfare-to-work recruits. We also know this runs 
into some complicated legal questions in 50 States.
    Certainly we support anything that will make it easier to 
us to recruit the enumerators we need and if that turns out to 
be the wavier bill, good. Yes, sir.
    Mr. Miller. I do not want to put words in Secretary 
Shalala's mouth, but when she was at the corporation's hearing, 
she had some legal doubts, too. But I think it cannot hurt in 
this--local review--it cannot hurt.
    Mr. Prewitt. It certainly cannot hurt the Census Bureau.
    Mr. Miller. It cannot hurt the Bureau and neither does it 
hurt post-census local review.
    Congresswoman Maloney.
    Mrs. Maloney. The bottom line is that we want to get the 
most accurate count possible, and we know what we got in the 
last count, we know what happened in 1990, we know that we 
missed 8.4 million people, that 4.4 million were counted twice, 
and we know that the people missed were largely children, 
Latinos, Asians, blacks, American Indians. So really the 
underlying question we have is how do we increase the count for 
particularly the undercounted areas?
    And in a bipartisan effort, and I would like to quote from 
the Republican former head of the Census Bureau, Dr. Barbara 
Bryant, and in talking on enumeration she said, ``Enumeration 
cannot count everyone. Throwing more money at enumeration will 
not improve it. In 1990, we hit the wall trying to count 
everyone by enumeration. The 1990 census was adequately funded, 
there was no shortage of funds for hiring more enumerators or 
making additional efforts.''
    And, as we know, she was a strong supporter of a modern 
count to correct the undercount. So the bottom line is we 
either correct the undercount or we knowingly go forward, 
missing millions of Americans. That is the fundamental question 
before us. We know we are going to do enumeration for 
apportionment. That is over.
    We know the courts have said we can get a more accurate 
count for data, the distribution of funds and for redistricting 
within the States. The only question before us is are we going 
to get a more accurate count or not, or are we deliberately 
going to forward missing millions of Americans.
    Now, we have had many bells and whistles put before this 
committee, but if I understand your testimony, none of it 
improves the undercount. Am I right or wrong?
    Dr. Prewitt, would you comment?
    Mr. Prewitt. Well, regretfully not. I have explained in 
other forums, I would re-explain today if I may, that the--and 
I appreciate that Mr. Miller has characterized this as being 
defeatist; it is not being defeatist, it is being honest, I 
would not want to mislead either the U.S. Congress, that would 
not be my job to mislead the U.S. Congress or to mislead the 
American people.
    All of the conditions which make it difficult to count 
people which we have experienced in 1980, 1970, again in 1990, 
they are growing. We have a better census. That is, this census 
is better than the 1990 census. So we are running harder to 
stay in place.
    Now, running harder to stay in place means that we will not 
count everyone. I hope we do as well as 1990. It is not 
defeatist to say that, it is to recognize the blunt realities 
of the lack of civic engagement, of the alienation, of the 
mobile life styles, of the irregular housing. It is to 
recognize those realities and to try to compensate as best we 
can for them.
    There will be an undercount, I am afraid, and it will be 
differential. It will not be equally spread across all regions 
and all population groups. The rural poor, the urban 
minorities, we will not find them at the same rate we find 
people living in the kind of neighborhoods we do. It just--
those are the facts. I wish they were not.
    The only way to know that after the fact will be if we do, 
as we have proposed, an accuracy and coverage evaluation. That 
will tell us after the fact how well we did up until December 
31st. This is not a two-number census. There is one number for 
apportionment and that will be presented, as is our obligation, 
to the U.S. President by December 31st. The census is not over.
    That does not conclude the census. The census goes on. And 
we will continue to be as complete and accurate as we can be. 
And that will produce a more accurate set of numbers which can 
be used for purposes other than apportionment.
    Mrs. Maloney. So it is very clear, my colleagues, what is 
before us. We either continue to miss millions of Americans who 
are disproportionately children and minorities, or we correct 
it and we have the scientific community which universally has 
come forward and pointed out the way to correct it and the 
Census Bureau has built it into their plan for their accuracy 
and evaluation.
    Now, I have one question that I think is tremendously 
important----
    Mr. Miller. We will have another round.
    Mrs. Maloney. I have to ask it right now because I have a 
lot on my chest and I am beginning to get very angry with what 
I am beginning to see here.
    What I am beginning to see and what I am beginning to hear 
from the professionals is that some of these ``improvements'' 
which are not the improvements that are suggested by the 
scientific community, but the ``improvements'' are going to 
hinder the Census Bureau, it is going to make it harder for 
them to come forward with an accurate count. I have heard you 
say that today.
    My question is do you think it is deliberately being put 
forward by the Republican majority to just make the census 
professionals have a more difficult time or make it impossible 
for them to go forward? If you have to re-let all of your 
contracts, if you have to re-change all your programs.
    Would you please comment?
    Mr. Prewitt. Well, if it is all right with Mrs. Maloney, I 
will not comment on motives. I can comment on consequences, but 
not motives.
    I have every reason to believe that Mr. Miller wants a 
complete and accurate count. I would have to suggest that some 
of the things that have been put on the table like the second 
mailing, the post-census LUCA, the language initiative, those 
three in particular, if they were now mandated by legislation, 
they would be very difficult, this thing would have to be--we 
would have to start aspects of this all over. Contracts, 
procedures, software, training, printing, publication, 
promotional materials. We would have to sort of take a back 
look. And this is very late in the day to do that.
    I would not at all impugn anyone's motives, of course, but 
I would say that certain kinds of things have consequences that 
perhaps have not been completely thought through, and that is 
why I welcome the opportunity to testify.
    Mr. Miller. Before I go to Mr. Davis, I wanted to say I am 
offended by Mrs. Maloney's accusation that my motives are 
different.
    I thank you, Dr. Prewitt. We all want the best count 
possible. I think it is going pretty low to start making those 
type accusations.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And, Dr. Prewitt, I just want to again thank you for your 
candor, for your forthrightfullness and professionalism. It 
seems to me that what you have suggested and what you are 
saying is that you really cannot get blood out of a turnip, 
that you can take it, you can dice it, you can slice it, you 
spice it, you can curl it, you can swirl it, but in the end you 
are still going to have turnip juice and I am afraid that is 
where we are, so I thank you very much.
    Mr. Miller. Let me--we had 10 proposals and you said you 
are basically agreeable with most of them, seven of them, 
anyway. And I would think rather than being fatalistic or 
pessimistic like my colleagues on the minority, that we cannot 
do any better, I think we need to do the best job we can and by 
having more partnership specialists, which you agree with, is 
going to help, because the partnership specialists hopefully 
are going to be targeted, I assume additional ones will be 
targeted to the hard to count areas. Is that a good assumption?
    Mr. Prewitt. [Nodding.]
    Mr. Miller. I mean, that should help. And we have got to do 
a full enumeration. The courts have ruled and we can start--we 
need to go back to sampling, go back to sampling, go back to 
sampling, it is a broken record. The courts have ruled, let us 
move forward, do the best job we can.
    Let me go over a few more of the issues. Census in the 
schools; that is a good program, I think. Now, start off with 
only 20 percent of the schools but I do not know if we can get 
all of the schools. Any idea of how many we are going to be 
able to try to get yet or--is that still secret information?
    Mr. Prewitt. No, I did--in case the committee has not had a 
chance to see it, we did, of course, pre-test our census in the 
schools program and I have these materials if you are 
interested.
    The 20 percent was targeted on the hard-to-reach parts of 
the population and it was restricted to 20 percent for 
budgetary reasons. And if we can go to 100 percent, we would 
love to go to 100 percent. We would love to engage every school 
child in the United States in this civic ceremony. It would be 
a marvelous thing. And so we would welcome the opportunity to 
get this into 100 percent of the schools.
    Mr. Miller. Well, if that is possible, I would be very 
supportive because it is--civics is what it is and to make it 
possible, anything we can do, I think I would be supportive and 
I would hope my colleagues would not object to that.
    The Americorp, I understand you are working with Americorp 
trying to find a way to work out something. Is that right?
    Mr. Prewitt. Well, yes. In fact, we have already met with 
Americorp, not with Americorp, but the Corporation for National 
Service, of course.
    Americorp is only one of their five programs and we have 
now worked out with Mr. Wolford and his staff a way to 
cooperate not just with Americorp but also with the National 
Service Sector, with the Foster Grandparent Program, their 
retired and senior volunteer program, every part. It is one of 
our most important partnerships. We have after all already 
signed up over 10,000 partnerships.
    Mr. Miller. Well, that is good. And a lot of this will help 
in the hard to count areas, right? Some of these will be in 
inner city areas? Is that right?
    Mr. Prewitt. Oh, certainly.
    Mr. Miller. So I hope my colleagues will not object to 
helping use that effort, too, since they minimize the ability.
    The matching grant program you said you are not just not 
set up to be a grantmaking organization. Is there someone else 
at the Census Bureau that can do that? Not the Census Bureau, 
at the Commerce Department? The Commerce Department is a huge 
grantmaking organization.
    Mr. Prewitt. I have not explored it with the Commerce 
Department. You know, after all, I spent 10 years in private 
foundations. I have a bit of experience with grant programs. 
And perhaps there is a way you could look to the private 
foundations. Many of them are quite engaged in the census.
    They have bureaucracies, they have mechanisms to sort of 
control the quality of the grants, monitoring the performance 
of the people who get grants and so forth. So perhaps you would 
like to explore this with the American foundation community. It 
would be a very important partnership between the public and 
the private sector. We would welcome more money going into our 
partnerships.
    You can appreciate why I am a little hesitant at this late 
stage to make the Census Bureau into something which I know is 
very difficult for it to be, which is to say a grantmaking 
operation because I have had 10 years of experience with that.
    So it is not a hesitancy about wanting money in the hands 
of the partners, it is how is the most effective way to make 
that happen.
    Mr. Miller. Well, maybe, within the Commerce Department, 
there is more of an appropriate vehicle that can be handled 
kind of independently because this is something that again I 
think we would all support, especially for the hard-to-count 
areas.
    Let me have one final question and go back to post-census 
local review. What is the relationship to post-census local 
review and the ACE issue? Is there any connection between the 
two of those? The 300,000 sample.
    Does it impact the--because I have heard that one of the 
reasons you are opposing it is that it will make it harder to 
do the sampling adjustment. Is that true or----
    Mr. Prewitt. No, sir. I do not know on what basis that 
would have been suggested to you.
    Mr. Miller. So the post-census local review has no impact, 
to your knowledge, on the 300,000 sampling process, right?
    Mr. Prewitt. No.
    Mr. Miller. Because of the time factor. Is that----
    Mr. Prewitt. It is important to know that the accuracy and 
coverage evaluation is an accuracy and coverage evaluation of 
addresses and people.
    Mr. Miller. Right.
    Mr. Prewitt. So maybe in some kind of complicated way, but, 
no.
    Mr. Miller. OK.
    Mr. Prewitt. We will go back and find out how well we did 
with our address list, just as we will go back and find out how 
well we did with our count.
    Mr. Miller. OK. Thank you. That is my final question.
    Does anybody else have a final question?
    Mrs. Maloney. I do.
    Are you aware, Dr. Prewitt, that the advisory committee 
does not support the post-census local review? They uniformly 
came out in opposition to it?
    Mr. Prewitt. I believe that what they recommended again was 
the attempt by a congressional committee to legislate it in 
such a way that it would sort of interfere with the ongoing 
procedures of the census itself.
    Mrs. Maloney. And are you aware that the post-census local 
review is scheduled for a markup this week to be reported out 
and to pass, I assume?
    So I would just like to ask you, GAO came out with a report 
that was very critical of the post-census local review program 
and, given their findings, I am sure you read their report and 
the Bureau's prior experiences, what reasons can you give to 
hope that the outcome of the post-census review will be any 
different this time?
    Mr. Prewitt. Well, there should be sort of nothing for the 
local governments to do if they cooperated with us back when we 
wanted them to cooperate with us, which is to get the address 
list right.
    I do want to remind you that there is also a boundary 
annexation process that we do do late in the fall of 2000 which 
makes sure that all the boundaries are correct and we do do 
that, of course, with the local governments.
    So it is not as if we are not constantly interacting with 
the local governments about sort of improving our procedures. I 
guess I am just less convinced than the chairman that sort of 
giving them the counts and then asking them to sort of say, 
well, is that as many people as live under these bridges or 
whatever, to use the metaphor that was used earlier, it strikes 
me as not a very effective way to go about involving local 
governments in the census operation, which we have now been 
doing for about 8 months.
    Mrs. Maloney. Will it hinder your ability to get the job 
done?
    Mr. Prewitt. Any new procedure that is not already embedded 
in what we are trying to put in place today will hinder our 
job. It just will. And I cannot say that strongly enough. And 
this is not to say a given idea is not a good idea, perhaps, 
but it is very unlikely that it is in a domain that we have not 
thought about.
    We have been doing it, you know, for a couple hundred 
years. We are not perfect and it is quite possible that there 
is something out there we have not even thought of. But the job 
is not like most people think it is. It is a count, it is 120 
million addresses and it is putting them together on a single 
day. There is no other operation like it. So people who have 
not lived in that operation perhaps do not appreciate what goes 
into it.
    I would love it if the members of this subcommittee would 
come out and sit in that lock-up room for an hour or two and 
watch the process at work. And then you would know how risky it 
is to sort of say at this late state in the cycle, aha, I have 
a better idea. And say pull this out and put that in.
    It is just--I have to say, Mr. Miller, you worried about my 
administrative accomplishments and achievements before I got 
here and I appreciate the basis of that worry, but I can tell 
you as a manager that it does not make sense to take something 
of this complexity and this magnitude and start redesigning it 
at this stage in the process. We are actually on schedule.
    I am sorry we do not have the budget for you today, but we 
are on the schedule that matters. The schedule that matters is 
April 1, 2000, December 31, 2000, April 1, 2001. We are on that 
schedule. Nothing that--anything that would deviate us from 
that schedule, the country will pay a price.
    And that is all I can say and I can say it as strongly as 
you will allow me to say it. I would invite you, members of 
your staff, to come out to that lock-up room and watch it 
happen and know how intricate it is.
    It is this sort of stuff and then it is putting it up on 
the screen, it is pulling down all of the procedures that go 
into a particular line, all of the subsequent activities that 
happen because of that line, making sure that everything 
connects with everything else. That is what it is to put this 
kind of operation in place. And it is very, very late in the 
day to imagine that we can do anything other than move forward 
with it.
    Mrs. Maloney. Well, I would like to respond to your 
invitation to go to the lock-up room and see how it works. I 
hope my colleagues on the committee will join us and I hope you 
would open it up to the public so that we could all see it. 
Maybe we could put it on C-SPAN or CNN and let everyone see how 
changing the census this late in the game will jeopardize being 
able to come forward with a more accurate count.
    I thank you, Dr. Prewitt, for your testimony.
    Mr. Miller. Mr. Davis, do you have any----
    Mr. Davis. No further questions.
    Mr. Miller. Thank you for your invitation, because we have 
had a great frustration over the past few months or so, due to 
a lack of information from the Census Bureau and now maybe--I 
guess the openness is that the staff can go out and maybe see a 
little bit more of what is happening and that, I think, would 
be good because this secret attitude is not building trust when 
we do not have the numbers and we need to have a system.
    We need to also start talking about what is going to happen 
in the 2010 census, how do we avoid this issue of trust we have 
today.
    And I look forward to our next time, after we get the 
plans, to come back, and Congress does have a role and I think 
if you--to say that Congress is irrelevant--and I know you are 
not saying exactly that, but you are saying basically, butt 
out, we are the professionals, it is kind of what you are 
saying, because it is too late for us to get involved. But, 
read Article 1 of the Constitution, the House of 
Representatives very specifically has the power to direct, and 
so we want to have the best census possible. I think working 
together, we can.
    So with that, let me say on behalf of the committee, let me 
thank you again for coming and I ask unanimous consent that all 
Members' and witnesses' written opening statements be included 
in the record and without objection, so ordered.
    I also ask unanimous consent that the record remain open 
for Congresswoman Kay Granger to submit an opening statement, 
if she would like.
    Thank you.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
